<html>
<title> - OVERSIGHT OF DEPARTMENT OF ENERGY ACTIVITIES AT THE YUCCA MOUNTAIN SITE</title>
<body><pre>[Senate Hearing 108-384]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-384
 
OVERSIGHT OF DEPARTMENT OF ENERGY ACTIVITIES AT THE YUCCA MOUNTAIN SITE

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                      MAY 28, 2003--LAS VEGAS, NV

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                               __________

                   U.S. GOVERNMENT PRINTING OFFICE
                          WASHINGTON : 2004
87-639 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
                    James W. Morhard, Staff Director
                 Lisa Sutherland, Deputy Staff Director
              Terence E. Sauvain, Minority Staff Director
                                 ------                                

              Subcommittee on Energy and Water Development

                 PETE V. DOMENICI, New Mexico, Chairman
THAD COCHRAN, Mississippi            HARRY REID, Nevada
MITCH McCONNELL, Kentucky            ROBERT C. BYRD, West Virginia
ROBERT F. BENNETT, Utah              ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                PATTY MURRAY, Washington
LARRY CRAIG, Idaho                   BYRON L. DORGAN, North Dakota
CHRISTOPHER S. BOND, Missouri        DIANNE FEINSTEIN, California
TED STEVENS, Alaska (ex officio)

                           Professional Staff

                               Clay Sell
                              Tammy Perrin
                        Drew Willison (Minority)
                       Nancy Olkewicz (Minority)

                         Administrative Support
                              Erin McHale




                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Harry Reid..........................     1
Statement of Senator John Ensign.................................     3
Statement of Robin M. Nazzaro, Director, Natural Resources and 
  Environment, General Accounting Office.........................     7
    Prepared Statement...........................................     8
History of Actions Taken to Correct Quality Assurance Problems...     9
Status of DOE Efforts to Improve Quality Assurance...............    10
Preliminary Observations.........................................    11
Statement of Allison MacFarlane, Senior Research Associate, 
  Massachusetts Institute of Technology..........................    12
    Prepared Statement...........................................    15
Brief Summary of Main Points.....................................    15
Politics and Science at Yucca Mountain...........................    16
Unresolved Technical Issues at Yucca Mountain....................    17
Reason for Unresolved Issues.....................................    19
Lessons Learned..................................................    20
Statement of William L. Belke, Nuclear Regulatory Commission 
  (Retired)......................................................    22
    Prepared Statement...........................................    24
Additional Material Submitted Subsequent to Close of Hearing.....    39
Letter From Senator Pete V. Domenici.............................    39
Response From Margaret S.Y. Chu..................................    39


OVERSIGHT OF DEPARTMENT OF ENERGY ACTIVITIES AT THE YUCCA MOUNTAIN SITE

                              ----------                              


                        WEDNESDAY, MAY 28, 2003

                               U.S. Senate,
      Subcommittee on Energy and Water Development,
                               Committee on Appropriations,
                                                     Las Vegas, NV.
    The subcommittee met at 1:12 p.m., in the Commission 
Chambers, Clark County Government Building, 500 Grand Central 
Parkway, Las Vegas, Nevada, Hon. Harry Reid presiding.
    Present: Senator Reid.
    Also present: Senator Ensign.


                opening statement of senator harry reid


    Senator Reid. The United States Senate Appropriations 
Committee and the Subcommittee on Energy and Water is called to 
order. The committee is meeting under the direction of Senator 
Pete Domenici, of New Mexico, and the ranking member, which is 
me. Senator Domenici has indicated that, with pleasure, he 
invited Senator Ensign, as I have, to participate in this most 
important hearing.
    I would like to acknowledge the presence of the Attorney 
General of the State of Nevada, Brian Sandoval. General, would 
you stand, please?
    General Sandoval runs the largest law firm in Nevada, about 
150 lawyers. We are very glad that he has personally taken the 
time to attend this. There has been a seamless transition from 
Attorney General Del Papa to Sandoval, working with the 
Governor and doing all the legal work that is necessary in this 
most important project, the project being the legal efforts to 
do what is necessary to make sure all Nevada's interests are 
represented in the courts of this country in this Yucca 
Mountain Project.
    I am also happy to recognize the County Commissioner, Myrna 
Williams.
    Over the years, we have appreciated very much the support 
of the Clark County Commission. We have had good support from 
Washoe County and Clark County, the two counties that make up 
about 90 percent of the population of the State of Nevada, and 
we are grateful for that support that we have gotten.
    I, first of all, want to thank the witnesses for appearing 
today in Las Vegas. Two of the witnesses had to travel a long 
distance to be here, and the third had to leave the golf course 
to come here.
    I have been working on problems dealing with Yucca Mountain 
for more than two decades. Throughout all these years, I have 
seen indications of problems with the program, and it seems 
that each time, no matter who is in the presidency, Democrat or 
Republican, the Department of Energy refuses to acknowledge the 
problems and presses forward like a runaway train. Somewhere in 
the bowels of the Department of Energy, there are people who 
never leave, and they continue their undying efforts to push 
this project that is flying.
    For two decades, we have heard warnings throughout the 
Nation about the dangers of transporting nuclear waste across 
the country. Today's hearing is not going to deal simply with 
that. And it appears that each time a person raises their 
voice, the Department of Energy says the concerns are 
unfounded.
    When I state that the Department of Energy's own analysis 
shows hundreds of thousands of truck shipments that would be 
needed to move the waste to Yucca Mountain, DOE simply says, 
``We will use rail.'' Well, we all know that we will never be 
able to build a rail spur in Nevada and in other parts of the 
country. It is too expensive, and it is certainly too risky.
    When the General Accounting Office, responding to our 
request, warned that the Department of Energy, that their site 
recommendation was unfounded and premature, they pressed ahead 
anyway. They simply ignored the General Accounting Office's 
well-documented investigation.
    Like an ostrich sticking its head in the sand, the 
Department of Energy just assumes ignoring these problems will 
make them go away. But it has not, and it will not.
    From the scientific standpoint, we have seen clear evidence 
that the project will never meet the Department of Energy's own 
requirements for groundwater movement through the repository, 
among other things. Here, the DOE's response was simple, ``Get 
rid of these requirements.''
    All of these events make it clear that the DOE is intent on 
pushing the project forward regardless of the risk it poses to 
the health and safety of Nevadans and the rest of the country. 
But all these actions by the DOE were just a drop in the bucket 
when compared to what I have seen in the last few months.
    Some of you have read the news reports about retaliation 
against workers in the quality assurance program who have 
raised concerns about the credibility of the scientific and 
technical work being done there. As a result, Senator Ensign 
and I requested an investigation by the General Accounting 
Office into these problems. Several months later, more reports 
surfaced about quality assurance auditors finding additional 
problems with the quality of the Department of Energy's 
management of the program and, most disturbing, the apparent 
efforts to silence those witnesses. This represents a 
disturbing pattern at the project. Instead of addressing 
problems, the DOE seems more intent on investigating auditors 
for simply doing their jobs.
    So today we hope to hear from a number of witness who have 
been involved in these incidents. Unfortunately--and I repeat, 
unfortunately--many of these witnesses were unwilling to come 
forward. We have two here who wanted to come and could not 
come. The DOE instructed a number of these witnesses not to 
appear today before the committee. And in a letter from Dr. 
Chu, who is running the nuclear waste program, in her letter 
she said, ``Well, he is not working at a job now that he would 
know anything about that.'' Of course, he was transferred, 
because of activities of the Department, from a job that he was 
responsible for quality assurance at Yucca Mountain.
    But I would say to Dr. Chu, if these witnesses had nothing 
to offer, why not let them come forward and prove to the 
American people that they had nothing to offer? The DOE has so 
little regard for the quality of the work being done at Yucca 
Mountain that the DOE would rather silence than support their 
own employees. These are not disgruntled employees. These are 
people who support the project--I repeat, support the project--
and simply want to make it better. They want the hundreds of 
millions, and arriving now at $7 billion, of taxpayers' money 
to be spent properly. These are brazen actions by a Federal 
agency that is about as annoying and as arrogant as I have ever 
experienced in my years of service in the Congress.
    To those of you out there who have things to say about 
Yucca Mountain, I would hope that you will listen to this 
hearing and know what else needs to be said. I will do 
everything I can to stop the intimidation at the project so 
that your voices may be heard without fear that you and your 
families will be made to suffer for simply telling the truth.
    I want to thank those of you who were able to testify 
today. We appreciate your not backing down in spite of the 
pressure that has been placed on you.
    This project is out of control. It is a multi-billion-
dollar boondoggle that is draining precious resources from our 
economy. At a time when the Federal Government is running 
record deficits and passing huge tax cuts, we need to stop 
wasting money on a project that will never succeed. Most 
important, we need to stop supporting a project that seeks to 
intimidate its own employees for telling the truth. These 
actions appear to be the desperate last efforts of a program 
that is failing under the weight of its own mismanagement and 
ineptitude.
    So I hope today we can gain enough information to convince 
our colleagues in the United States Senate that the time has 
come to put an end to the fear and retaliation and put an end 
to the project.
    Senator Ensign.


                    statement of senator john ensign


    Senator Ensign. Thank you, Mr. Chairman. You are probably 
not used to being called Mr. Chairman, being in the minority 
now.
    So I will give you the honor today, and thanks for----
    Senator Reid. But I have fond memories of being in the 
majority.
    Senator Ensign. No, and I appreciate that, but I hope you 
stay in the minority.
    It is great to be here with you, and I want to extend my 
thanks to Senator Domenici for allowing us to have this hearing 
out here and to you for calling this hearing.
    I also want to welcome our witnesses. I am disappointed 
that we do not have all of the witnesses that we had hoped to 
have at this hearing today. There are real concerns that the 
Department of Energy's fierce commitment to its schedule for 
submitting its application for an operating license to the 
Nuclear Regulatory Commission by 2004 and storing the Nation's 
nuclear waste in our backyard by 2010 has allowed an 
unrealistic time line to take precedence over quality control.
    As the Nuclear Regulatory Commission management leader, 
John Greeves, noted, ``quality is not being built into the 
project. The bottom line is that behavior and safety needs 
change. Right now, the schedule pressures are overrunning the 
quality''.
    Clearly, that is not acceptable. However, it is going to 
keep on happening unless we blow the whistle on the failures of 
the quality assurance program and the Department of Energy's 
efforts to silence the program's critics.
    Our Nation and our State cannot allow the DOE to cut 
corners on the very program which has been set up to verify 
that all scientific data and engineering designs submitted to 
support a license for Yucca Mountain are accurate and reliable.
    Senator Reid and I, as he mentioned, have asked the General 
Accounting Office to look into the problems DOE's quality 
assurance program is experiencing. We asked the GAO to answer 
three main questions. One, has the quality assurance program 
been effective in identifying and correcting quality 
deficiencies? Two, have the deficiencies affected the progress 
of the project? And, three, what efforts has DOE taken to 
strengthen the program's effectiveness. Hopefully, the GAO can 
shed some light on these matters today.
    In addition, I am concerned that responsible workers who 
uncover problems with Yucca Mountain procedures are being 
retaliated against by DOE and its contractors. Just look at the 
recent case, where three out of the four members of a Yucca 
Mountain quality assurance review team, Don Harris, Lester 
Wagner, and George Harper, contractors for Navarro Research and 
Engineering, were reassigned after their audit resulted in a 
stop-work order. Unfortunately, this is an all-too-familiar 
story. It is reminiscent of the firing of Jim Matamo, another 
Navarro Yucca Mountain quality assurance reviewer. Of course, 
later the Labor Department determined he had been unfairly 
terminated. And let us not forget the case of Bob Clark, former 
director of the DOE Office of Quality Assurance, who was 
transferred after raising concerns about possible wrongdoing at 
the Yucca Project.
    The two whistleblowers we invited to appear today, Bob 
Clark and Don Harris, declined to attend. I, personally, chalk 
that up to the fear of the DOE's and its contractors' culture 
of retaliation that these individuals have personally 
experienced.
    I certainly believe that this hearing is an important 
endeavor, and I want to thank Senator Reid for holding it and 
for the witnesses for coming here to enlighten us. The 
importance of a rigorous quality assurance program should not 
be underestimated. If quality assurance is not in place, the 
NRC could and should reject the license applications on those 
grounds.
    I thank you, Senator Reid, and look forward to hearing from 
our witnesses.
    Senator Reid. Senator, one of the things I forgot to 
mention to you is I had to get permission from my son to have 
this meeting here today.
    Senator Ensign. Have you noticed also that the chairs in 
their hearing chambers are a lot nicer than the Senate's?
    I think they have a lot more money than we do.
    Senator Reid. Yeah, I think that is probably true. I think 
the Attorney General should investigate that.
    We have here a couple of vacant chairs, and it is difficult 
for me to understand how the Department of Energy could allow 
anything like this to happen. These are people who wanted to 
come and testify. They are afraid. And we will talk, just very 
briefly, about what these people would have said had they been 
able to be here. Now, keep in mind they wanted to come. And for 
various reasons, they did not come. The most important reason 
they did not come, they were afraid they would lose their jobs.
    Robert Clark is someone who would provide a lot of 
information. He has talked to other people. The DOE sent a 
letter, as I indicated, saying that he had nothing to talk 
about because he no longer worked in the quality assurance 
program. This is outrageous, for lack of a better word to 
describe the activities of the Department of Energy. Mr. Clark 
no longer works in the quality assurance program because the 
DOE moved him to a new position. According to press accounts, 
Mr. Clark was told at the time, quote, to take one for the 
team.
    I can imagine, after being told that, after hearing about 
the letter the DOE sent me, he would really be reluctant to 
come forward to testify. The DOE should be afraid of what he 
has to say.
    But remember, this is an agency of the Federal Government. 
It is not an independent entity set up to freelance on anything 
they feel is important. Mr. Clark was a director of quality 
assurance for the Yucca Mountain Project for 4 years. He is a 
nationally recognized expert in quality assurance. As a leader 
of the quality assurance program, he told the DOE to shape 
their quality assurance program up. He would have forced the 
DOE to make too many commitments, I guess, to the NRC, the 
Nuclear Regulatory Commission, commitments that would slow down 
the project; therefore, they just moved him. They cannot allow 
anything to slow up this project, so they just simply, I 
repeat, moved him.
    Since they moved him from quality assurance, not a single 
one of the problems that he flagged has been fixed, more 
problems have been created, more people have been harassed and 
intimidated, fewer people feel comfortable raising safety 
concerns. So it is no wonder DOE does not want to justify why 
they moved him.
    I am disappointed that we could not hear Mr. Clark today. 
He would have shed a spotlight on the recurring quality 
assurance problems at Yucca Mountain. But most importantly, I 
am disappointed that we could not hear from Mr. Clark today, 
because what this says about Department of Energy concern for 
honesty, integrity, and fairness speaks in volumes.
    In testifying, Mr. Clark would have testified about the 
quality of DOE's Yucca Mountain work. In not appearing, Mr. 
Clark's absence speaks volumes about an agency that is 
committed to pushing this project regardless of who gets fired 
or intimidated or how taxpayer dollars are wasted.
    This project is no longer about quality assurance. It is 
about good, ethical, and safe Government that protects, above 
all, the people who work for it and the people who it 
represents, the taxpayers of America.
    Senator Ensign, would you tell us a little bit about the 
other vacant witness?
    Senator Ensign. Yes. Donald Harris was another person that 
we wanted to hear from today. Unfortunately it appears his 
employer and the Department of Energy also would prefer him not 
to speak. Based on several recent news reports, it appears that 
he would have had a lot to offer to this hearing.
    Donald Harris was reported to have been a member of an 
audit team that uncovered problems with the quality assurance 
program at Yucca Mountain. Based on his work, the Department of 
Energy issued a stop-work order, a rare occurrence, even at the 
Yucca Mountain Project. After completing the audit, we know 
that he was temporarily reassigned and taken off the audit 
teams. It seems that this is testimony that would be extremely 
relevant today, since we are not only trying to figure out what 
is going on with quality assurance, but also what is going on 
with the treatment of workers.
    Donald and all the other auditors on his team were simply 
doing their jobs, and they were doing them well. Their job is 
precisely to find problems with quality assurance, raise them, 
and then have them corrected. Unfortunately, Donald's case 
seems to be one more example of the DOE spending more time 
trying to find out who raises concerns than actually trying to 
fix the problems raised in those concerns. Donald is one of 
many experienced auditors working on this project.
    I am extremely disappointed he is not here today. The 
people of Nevada, the Department of Energy, and the Nation have 
missed a real opportunity to understand the problems with Yucca 
Mountain.
    Mr. Chairman, I think that it cannot be emphasized enough 
that these are two witnesses who very much support the Yucca 
Mountain Project, and that is why their testimony would have 
been so valuable today, because no one could question their 
motives. So it is very disappointing that they were not able to 
testify today.
    Thank you.
    Senator Reid. Ladies and gentlemen, we are going to have 
testimony from three witnesses at this time. Following the 
statements of the three witnesses, which will take about 10 
minutes each, Senator Ensign and I will begin asking questions 
of the witnesses.
    The first witness we are going to hear from today is from 
the General Accounting Office. A little background of the 
General Accounting Office, the General Accounting Office is the 
watchdog of Congress. It is an agency that is set up on a 
bipartisan basis, nonpartisan basis, to do investigations of 
what is going on in this country, whether it is something in 
the Defense Department, whether it is something in the Bureau 
of Land Management, or, as we are looking here, something 
within the Department of Energy. They are known worldwide for 
their astuteness and their approach to finding, without any 
political bias, a problem. And I have worked with them all 
these years and been terribly impressed.
    Today, we are going to hear initially from Robin Nazzaro, 
who is the director of the Natural Resources Environmental Team 
at the United States General Accounting Office. She is 
currently the director, as I have indicated. She, for the past 
10 years, has been responsible for overseeing GAO's work 
assessing the results of the Federal Government's investment in 
Federal science and technology programs. She has been with the 
General Accounting Office since 1979. She has served as an 
assistant to the deputy director for planning and reporting. 
She has served as the division focal point for strategic 
planning and human resources. She has been educated at the 
University of Wisconsin. Among other honors from the General 
Accounting Office, she received the Controller General's 
meritorious service award for sustained leadership. She has 
received two Assistant Controller General's awards for 
exceptional contributions in strategic planning. So we are very 
fortunate to have her here today to give us the information 
that she has regarding Yucca Mountain.
    Ms. Nazzaro.
STATEMENT OF ROBIN M. NAZZARO, DIRECTOR, NATURAL 
            RESOURCES AND ENVIRONMENT, GENERAL 
            ACCOUNTING OFFICE
    Ms. Nazzaro. Thank you, Mr. Chairman. I am pleased to be 
here today to discuss the Department of Energy's quality 
assurance program for the Yucca Mountain Repository Project.
    As you know, Yucca Mountain is intended to serve as the 
Nation's permanent repository for high-level nuclear waste. DOE 
is currently in the process----
    Senator Reid. Can everyone hear? No. So----
    Ms. Nazzaro [continuing]. DOE is currently in the process 
of preparing an application to the Nuclear Regulatory 
Commission for authorization to construct the repository, which 
it expects to submit by December 2004. To ensure that DOE can 
safely design, construct, and operate the repository, NRC 
requires DOE to have a quality assurance program in place. This 
program is designed to include procedures to assure NRC that 
the information submitted is verifiable and well-documented. 
Audits and management reviews are also built into the program 
to monitor whether workers follow these procedures. In cases 
where the procedures have not been followed, DOE must develop 
and implement corrective actions and monitor their 
effectiveness.
    In this context, you asked GAO to investigate the 
effectiveness of DOE's efforts to improve its quality assurance 
program. Although we are still in the early stages of our work, 
I am prepared today to provide the history of DOE's actions to 
correct quality assurance problems, the status of DOE's efforts 
to improve its quality assurance program, and our preliminary 
observations on the effect of the quality assurance problems on 
DOE's ability to successfully meet its 2004 milestone for 
submitting its application to NRC.
    In summary, DOE's track record for correcting problems with 
its quality assurance program is less than favorable. Dating 
back to the late 1980's, NRC identified many concerns at Yucca 
Mountain. DOE was put on notice of these shortcomings, but the 
problems continued. As a result, NRC reported that it had no 
confidence that DOE's management plan for resolving quality 
assurance issues related to the design activities would work.
    In the late 1990's, DOE's own audits at Yucca Mountain 
identified quality assurance problems in three areas: data 
sources, verification of scientific models, and software 
development. In response to the issues raised in the audits, 
DOE issued a management plan in 1999 that prescribed remedies. 
However, model verification and software-development problems 
resurfaced again in 2001.
    In July of 2002, DOE provided NRC with a revised plan to 
correct its quality assurance problems at Yucca Mountain, 
including the problems with scientific models and software 
codes. Because DOE is still in the process of implementing this 
plan, it is too early to determine whether these changes will 
be effective. However, notwithstanding these changes, in April 
2003 DOE again found data-related problems similar to the data-
verification problems identified back in 1998.
    Whether DOE can correct its quality assurance problems in 
time to meet its 2004 milestone for submitting an application 
that NRC will accept is unclear. DOE's unsuccessful efforts to 
address recurring quality assurance problems, the 
identification of new problems since the issuance of this 2002 
management-improvement plan, and NRC's recent comment that 
DOE's quality assurance program has yet to produce the outcomes 
necessary to ensure that this program meets NRC's requirements, 
do not instill much confidence that the quality assurance 
problems will soon be resolved. These problems could impede the 
licencing process, leading to time-consuming and expensive 
delays as the weaknesses are corrected, or ultimately prevent 
authorization to construct the repository. Moreover, continued 
reliance on data that are unreliable or inaccurate could lead 
to adverse health, safety, and environmental effects in the 
course of the 10,000-year licensing period.
    However, now that the project has shifted from scientific 
investigation to preparing the application, DOE may now have 
the motivation and focus to correct recurring quality assurance 
problems given the integral role that quality assurance plays 
in the application process.


                           prepared statement


    As we continue our investigation for you, we will further 
validate our observation and assess the effectiveness of DOE's 
efforts to improve its quality assurance program.
    Thank you. That concludes my testimony. I would be pleased 
to respond to any questions you may have.
    [The statement follows:]
                 Prepared Statement of Robin M. Nazzaro
    Senators Ensign and Reid, we are pleased to be here today to 
discuss the Department of Energy's (DOE) quality assurance program for 
the Yucca Mountain repository project. As you know, Yucca Mountain is 
intended to serve as the Nation's permanent repository for high-level 
nuclear waste. DOE is currently in the process of preparing an 
application to the Nuclear Regulatory Commission (NRC) for 
authorization to construct the repository, which it expects to submit 
by December 2004. To ensure that DOE can safely construct and operate 
the repository, NRC requires DOE to have a quality assurance program. 
The quality assurance program is designed to include procedures to 
assure NRC that the information submitted to it is verifiable and well 
documented. Audits and management reviews are also built into the 
program to monitor whether workers follow these procedures. In cases 
where they are not followed, DOE must develop and implement corrective 
actions and monitor their effectiveness. An ineffective quality 
assurance program could potentially impede the application process and 
could precipitate potentially adverse health, safety, and environmental 
effects.
    In this context, you asked us to investigate the effectiveness of 
DOE's efforts to improve its quality assurance program. Although we are 
still in the early stages of our investigation, we are prepared today 
to provide: (1) the history of DOE's actions to correct quality 
assurance problems, (2) the status of DOE's efforts to improve the 
quality assurance program, and (3) preliminary observations on the 
effect of quality assurance problems on DOE's ability to successfully 
meet its 2004 milestone for submitting an application to NRC requesting 
authorization to construct the repository.
    In summary:
  --DOE's track record of correcting problems with its quality 
        assurance program is less than favorable. Recurring problems 
        have persisted in the program despite DOE's numerous attempts 
        to correct them. DOE evaluations and NRC oversight activities 
        have concluded that the program still falls short of 
        expectations.
  --DOE's 2002 quality assurance improvement plan represents the 
        department's most recent attempt to correct quality assurance 
        problems, including those involving scientific models and 
        software codes that DOE will use to demonstrate the safety of 
        the repository. Because DOE is still in the process of 
        implementing this plan, it is too early to determine whether 
        changes included in the plan will be effective. However, 
        notwithstanding these changes, DOE has recently identified 
        further quality assurance problems, including recurring 
        problems with the data that will be used to support the NRC's 
        decision on whether to authorize DOE to construct the 
        repository.
  --Based on previously identified weaknesses and recent indications of 
        new problems, we are concerned that DOE's current efforts to 
        improve its quality assurance program may not yield the results 
        it hopes for. Our observation is further supported by NRC's 
        recent comment that DOE's quality assurance program has yet to 
        produce outcomes necessary to ensure that this program meets 
        NRC requirements.
                               background
    The Nuclear Waste Policy Act of 1982 was enacted to establish a 
comprehensive policy and program for the safe, permanent disposal of 
commercial spent fuel and other high-level radioactive wastes. DOE was 
directed in the act to, among other things, investigate potential sites 
for locating a repository. Amendments to the Act in 1987 directed DOE 
to consider only Yucca Mountain, Nevada, as a potential site for a 
repository. In 2002, the Congress approved the President's 
recommendation of Yucca Mountain as a suitable site for the development 
of a permanent high-level waste repository. The next step in the 
process is for DOE to submit an application to NRC for an authorization 
to construct the repository.
    In order to ensure that the information submitted to NRC is 
verifiable and well documented, NRC requires nuclear facilities to 
develop a quality assurance program that includes a process to identify 
problems, develop corrective actions, and monitor the effectiveness of 
these actions. Among other things, such a quality assurance program is 
required to: (1) train personnel in quality assurance; (2) inspect 
activities that affect quality; (3) establish controls over testing 
programs and test equipment, such as ensuring that this equipment is 
properly calibrated; (4) establish and maintain records, including 
records documenting the qualifications of personnel performing 
repository work; and (5) verify compliance with the rules and 
procedures of the quality assurance program to determine the 
effectiveness of the program.
    In carrying out its responsibility for the Yucca Mountain 
repository to meet the Environmental Protection Agency's (EPA) 
standards for protecting public health and safety, as well as its 
standards, NRC provides consultation and advice to DOE in the project's 
pre-application period. NRC officials are located onsite at the Yucca 
Mountain project office where they conduct daily oversight of project 
activities, including observing and commenting on DOE's quality 
assurance audits and preparing bi-monthly reports on the overall status 
of the program. Additionally, DOE and NRC hold quarterly quality 
assurance meetings and conduct exchanges between staff on technical 
issues.
     history of actions taken to correct quality assurance problems
    DOE's quality assurance problems at the Yucca Mountain repository 
site date back to the late 1980's. In a 1988 report, we identified 
significant problems with the quality assurance program, noting that it 
failed to meet NRC standards.\1\ We found that NRC had identified many 
specific concerns from the oversight activities it had performed at 
Yucca Mountain. For example, NRC noted that DOE's heavy reliance on 
contractors and its inadequate oversight of quality assurance 
activities would increase the likelihood that DOE might encounter 
quality-related problems. Furthermore, NRC said that the likelihood 
that the State of Nevada and others would contest the licensing 
proceedings increased the probability that DOE would have to defend its 
quality assurance program and the quality of the work performed. NRC 
noted that DOE's inability to properly defend its work could result in 
additional expense and time-consuming delays as program weaknesses are 
corrected. NRC also found that DOE staff and contractors exhibited 
negative attitudes toward the function of quality assurance, noting 
that participants appeared to lack a full appreciation for what it took 
to get a facility licensed by NRC.
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, ``Nuclear Waste: Repository 
Work Should Not Proceed Until Quality Assurance Is Adequate,'' GAO/
RCED-88-159 (Washington, DC: Sept. 29, 1988).
---------------------------------------------------------------------------
    DOE was put on notice of these shortcomings, but the problems 
continued. In its 1989 evaluation of DOE's Site Characterization Plan, 
NRC concluded that DOE and its key contractors had yet to develop and 
implement an acceptable quality assurance program. In March 1992, based 
on progress DOE had made in improving its quality assurance program, 
NRC allowed DOE to proceed with its site characterization work, noting 
that DOE had demonstrated its ability to evaluate and correct quality 
assurance program deficiencies. A year and a half later, however, NRC 
raised concerns with DOE about the acceptability of facility design 
activities requiring quality assurance. NRC reported that it had no 
confidence that DOE's management plan for resolving quality assurance 
issues related to the design activities would work because of DOE's and 
the site contractors' inability to effectively implement corrective 
actions in the past.
    DOE renewed its efforts to correct problems with its quality 
assurance program starting in the late 1990's when its own audits at 
Yucca Mountain identified quality assurance problems in three areas: 
data sources, validation of scientific models, and software 
development. First, DOE could not ensure that all the data needed to 
support the scientific models could be tracked back to original sources 
or that the data had been properly collected. Second, DOE had no 
standardized process to develop the scientific models needed to 
simulate geological events. Finally, DOE had no process for ensuring 
that the software being developed to support the models would work. In 
response to the issues raised in the audits, DOE issued a management 
plan in 1999 that prescribed remedies. Following implementation of this 
plan, DOE considered the issues resolved.
    Model validation and software development problems, however, 
resurfaced in 2001. New quality assurance audits found that project 
personnel had not followed the required procedures for model 
development and validation or established a timeline for completing the 
models. In addition, these audits identified that project personnel had 
not followed the software development process, prompting a prohibition 
on further software development without prior management approval. 
According to DOE, the significance of these new observations was 
compounded by their similarity to those problems previously identified.
           status of doe efforts to improve quality assurance
    In July 2002, DOE provided NRC with a revised plan to correct its 
quality assurance problems at Yucca Mountain, including the problems 
with scientific models and software codes. In constructing the plan, 
DOE conducted an in-depth study of Yucca Mountain's management and work 
environment. The plan outlined five key areas needing improvement. 
Specifically, it noted the need for:
  --clarifying roles, responsibilities, accountability, and authority 
        for DOE and contractor personnel,
  --improving quality assurance processes and clarifying line 
        management's quality responsibilities,
  --improving DOE and contractor written procedures,
  --implementing more effective and consistent corrective action plans 
        to preclude recurring quality problems, and
  --improving the work environment where employees can raise program 
        concerns without fear of reprisal.
    To fully address issues raised in the plan, DOE identified a total 
of 72 actions needed to correct the quality assurance program--35 to 
address the five key areas, 12 to address model development issues, and 
25 to address software development issues. DOE recently reported that 
it had completed 41 of the 72 actions. The management plan also 
included performance measures to assess the effectiveness of the 
actions. DOE recently reported, however, that the Yucca Mountain 
project still lacks complete and useful performance measures and stated 
its intention to have the appropriate performance measures in place by 
September 2003.
    Since DOE began to implement its latest improvement plan, new 
quality issues have emerged. In March 2003, DOE issued a ``stop-work'' 
order preventing further use of a procedure intended to help improve 
DOE and contractor quality assurance procedures. According to DOE, they 
cancelled the use of the procedure and reverted back to the existing 
procedure. In April 2003, DOE again found data-related problems similar 
to the data verification problems identified in 1998. For example, DOE 
found that, instead of verifying data back to appropriate sources, 
project scientists had been directed to reclassify the unverified data 
as ``assumptions'' which do not require verification.
    At the April 2003 quality assurance meeting with NRC, DOE 
highlighted several recent improvements to the quality assurance 
program. These improvements included: (1) management changes with DOE's 
primary contractor at the site, including a new president and a new 
director of quality assurance, (2) increased line management 
involvement in quality assurance, and (3) the integration of quality 
engineers with DOE line employees. Despite this reported progress, an 
NRC official at the same meeting commented that the quality assurance 
program had still not produced the outcomes necessary to ensure the 
program is compliant with NRC requirements.
                        preliminary observations
    Whether DOE can correct its quality assurance problems in time to 
meet its milestone for submitting an application that is acceptable to 
NRC is not clear. DOE's unsuccessful efforts to address recurring 
quality assurance problems, the identification of new problems since 
the issuance of its 2002 improvement plan, and NRC's recent comment 
that DOE's quality assurance program has yet to produce outcomes 
necessary to ensure that this program meets NRC requirements do not 
instill much confidence that the quality assurance problems will soon 
be resolved. An ineffective quality assurance program could impede the 
application process, leading to time-consuming and expensive delays as 
weaknesses are corrected, or ultimately prevent DOE from receiving 
authorization to construct a repository. Moreover, continued reliance 
on data that are unverifiable and thus could be inaccurate could lead 
to adverse effects in the course of the 10,000-year period required by 
EPA's health and safety standards. At the same time, now that the 
project has shifted from scientific investigation to preparing an 
application, DOE may now have the proper motivation and focus to 
correct recurring quality assurance problems given the integral role 
that quality assurance plays in the application process.
    As we continue our investigation, we will work to validate our 
observations and further assess the effectiveness of DOE's efforts to 
improve its quality assurance program.
    Thank you, Senators Reid and Ensign. That concludes my testimony. I 
would be pleased to respond to any questions that you may have.

    Senator Reid. We are now going to hear from Dr. Allison 
MacFarlane, from the Massachusetts Institute of Technology.
    Dr. MacFarlane is currently a senior research associate at 
MIT's security studies program. For the past 2 years, she has 
been a Social Science Research Council MacArthur Foundation 
fellow in International Peace and Security at the Belfer Center 
for Science and International Affairs at Harvard. She received 
her Ph.D. from MIT in 1992. She has traveled around our country 
considerably. She has been a professor of geology at George 
Mason University. She has been a scholar at Radcliffe College 
and Kennedy School Fellowship at Harvard. From 1997 through 
1998, she was a science fellow at Stanford. And for the past 2 
years, she has been serving on a National Academy of Science 
panel on spent-fuel standard and excess weapons-plutonium 
disposition. Her research focuses on the issues surrounding the 
management and disposal of high-level nuclear waste and fissile 
materials. We could not have anyone better qualified to testify 
at this hearing today than Dr. MacFarlane.
    Dr. MacFarlane.
STATEMENT OF ALLISON MACFARLANE, SENIOR RESEARCH 
            ASSOCIATE, MASSACHUSETTS INSTITUTE OF 
            TECHNOLOGY
    Dr. MacFarlane. Thank you, Mr. Chairman, Senator Ensign, 
ladies and gentlemen.
    Senator Reid. Turn your mike back on.
    Dr. MacFarlane. Aha, okay. Let me begin again. Technology 
defeats me, even though I am at MIT.
    Mr. Chairman, Senator Ensign, ladies and gentlemen, I 
appreciate the opportunity to address the important issue of 
quality assurance in the siting and development of a nuclear-
waste repository at Yucca Mountain in Nevada.
    To understand quality assurance and the quality of science 
at Yucca Mountain, one must first understand what type of 
science is being produced there. I will discuss that, and then 
I will go on to discuss a selection of what I consider to be 
the significant, unresolved scientific issues that bear on the 
safety of the Yucca Mountain site as a nuclear-waste 
repository. I will conclude with some suggestions for improving 
the quality of the science.
    The science done in support of siting a repository at Yucca 
Mountain has clearly been influenced by politics. The science 
produced by Department of Energy scientists or their 
contractors is requested by and evaluated by managers at DOE 
who must fulfill legal and regulatory obligations under the 
Nuclear Waste Policy Act and Nuclear Regulatory Commission and 
the Environmental Protection Agency rules. In this way, not 
only are the managers at DOE seeking particular knowledge, but 
the scientists themselves are required to gather data in a way 
that fulfills DOE's political obligations.
    The products of scientific inquiry at Yucca Mountain are, 
for the most part, published as DOE reports without individual 
authors, and rarely does this data find its way into peer-
reviewed publications. This is not to say that there is no peer 
review at DOE, but it is an internal matter; and, thus, the 
agency is in danger of appearing to review itself, which brings 
into question the quality of their research. Peer review works 
best when scientists outside a community review the research. 
DOE's science would appear less politicized overall if it were 
shown to pass muster with the larger scientific community.
    Let me illustrate the influence of politics on Yucca 
Mountain science with a brief example. I argue that DOE has 
stressed some of the features of Yucca Mountain--in particular, 
its deep water table and aridity--as positive, without 
adequately exploring the negative aspects of these features.
    DOE basically has a dry-is-good policy for Yucca Mountain, 
but Yucca Mountain is not really dry. A cubic meter of rock, on 
average, there contains 100 liters of water. And it turns out 
that the United States is the only country pursuing a policy of 
developing a repository above the water table. All other 
countries are looking to store their waste below the water 
table, which, in fact, is better for spent fuel. Spent fuel in 
the presence of air and moisture, the conditions that will be 
expected at Yucca Mountain, oxidizes or rusts like iron. But 
due to their focus on the dry-is-good policy, the DOE has not 
fully explored many of the important technical issues 
associated with spent-fuel degradation in an oxidizing 
environment.
    Spent-fuel degradation is just one of the scientific issues 
that remains unresolved but could affect the safety of a 
nuclear-waste repository at Yucca Mountain. Let me discuss a 
few others that I consider significant for repository 
performance.
    First, DOE has underestimated, I would say, the future 
infiltration of water into the mountain from precipitation, 
because they have not adequately accounted for the effects on 
the climate of Southern Nevada from the extreme carbon-dioxide 
levels that the planet will likely experience in only a 100 
years.
    Second, DOE continues internal debates about the quality of 
chlorine-36 data and its impact on transport of water above the 
water table, while ignoring other significant unsaturated-zone 
issues. The hydrologic community, in general, accepts the 
chlorine-36 data and the current conceptual models of water 
transport in the unsaturated zone, but DOE is in the process of 
redoing the study and has done a poor job in doing so. 
Remaining open are questions of how fracture flow occurs in 
Yucca Mountain rock and which fractures are the ones that would 
actually flow.
    Third, DOE is relying heavily on the performance of Alloy-
22, a chromium-nickel molybdenum alloy, to provide at least 
10,000 years of corrosion resistance for the waste packages. 
This reliance stems from 2 years' worth of corrosion studies in 
the laboratory. There are no natural analogs, no long-term 
studies, and little understanding about the very complex and 
poorly understood conditions that will evolve over time around 
the waste package. These conditions depend on interactions 
among the canister, the rock, the drip shield, other tunnel 
equipment, groundwater, heat, and radioactivity.
    Fourth, in the past DOE assumed that radio nuclides like 
plutonium would move far from the repository because they are 
not soluble in water. But it turns out that plutonium can 
adhere to tiny particulate material called colloids and be 
transported long distances. We know this from evidence 
collected at the nearby Nevada test site. But very little work 
has been done at Yucca Mountain so we do not yet know what will 
form colloids in the repository--for instance, the waste, the 
rock, the microbes--how far they can travel, and how much 
material, like plutonium, would be available for transport.
    Fifth, we know very little about how radio nuclides would 
be transported in the saturated zone below the water table, 
simply because we know very little about the saturated zone 
itself. This stems from the fact that there are not many test 
wells north of Route 95 and only one multi-well test location.
    Sixth, and finally, the potential volcanism at Yucca 
Mountain remains a contentious issue, with the Nuclear 
Regulatory Commission arguing that there exists an order-of-
magnitude-higher probability for volcanism at the repository 
than the Department of Energy.
    Why do these issues remain, and why are there problems with 
the quality of science at Yucca Mountain? One explanation is, 
as I said earlier, that DOE has focused on some issues to the 
exclusion of others. Furthermore, the results of their 
performance assessment show that the performance of the 
repository depends largely on the waste package and, therefore, 
does not encourage further exploration of the concerns of 
geology and geohydrology.
    Another explanation lies in the quality assurance program 
itself. In some cases, the quality assurance program is a 
barrier to who can do science and what science can be used in 
the assessment of Yucca Mountain. One rule of the quality 
assurance program prevents DOE scientists from using data 
already published in the literature as primary data. Published 
data can only be used to corroborate DOE's own findings. Thus, 
even if work has already been peer reviewed by the scientific 
community, DOE requires that it collect its own version of the 
data for input into modeling studies. Furthermore, the process 
of actually using already-published data turns out to be an 
onerous task that few DOE scientists attempt. Thus, they are 
forced to repeat work already done.
    Furthermore, the quality assurance program requires that 
laboratories that produce data to be used in the Yucca Mountain 
assessment be qualified by the Department of Energy before they 
are allowed to produce usable data. This is a costly and 
onerous task and limits the number of labs that can do 
analysis.
    What can we do to address these issues? First, in terms of 
the quality assurance program, DOE should allow the free and 
easy use of peer-review data gathered by academic researchers. 
It should allow the use of laboratories that do not have the 
imprimatur of DOE's quality assurance program as long as they 
are respected within the academic community. It should continue 
to encourage DOE scientists to publish their work in 
academically peer-reviewed journals and, in fact, make it 
easier for them to do so by reducing the number of internal 
reviews required of the work. DOE scientists have begun to do 
this more over the last few years, and it is essential that 
they continue to do so to demonstrate the quality of the 
research.
    DOE could improve the quality of science produced for its 
nuclear waste program by offering competitive grants to 
academic researchers to complete scientific analysis essential 
to the understanding of Yucca Mountain. In doing so, they must 
not control the interpretation of data. The Office of Civilian 
Radioactive Waste Management recently enacted a funding program 
aimed at supporting academic research on these issues.
    It should be viewed as a start of a larger process. And DOE 
should allow an external panel of scientists selected in as 
apolitical fashion as possible--for example, by a group of 
members of the National Academy of Sciences or ranking members 
of national scientific organizations--to produce an independent 
review of the science done and to allow a mechanism for 
feedback within DOE.

                           PREPARED STATEMENT

    Finally, DOE might benefit by comparing the expected 
performance of different existing waste repositories, such as 
the WIPP site in New Mexico and the sites selected by Finland 
and Sweden, to Yucca Mountain, instead of simply relying on 
their performance-assessment modeling to evaluate the Yucca 
Mountain site.
    Thank you.
    [The information follows:]
                Prepared Statement of Allison MacFarlane
    Mr. Chairman, distinguished senators, ladies and gentlemen, I 
appreciate the opportunity to address the important issue of quality 
assurance in the siting and development of a nuclear waste repository 
at Yucca Mountain, Nevada.
    I am a Senior Research Associate at the Massachusetts Institute of 
Technology's Security Studies Program. I hold a Ph.D. (1992) in geology 
from the Earth, Atmospheric and Planetary Sciences Department at the 
Massachusetts Institute of Technology. I have been studying and writing 
about both the technical and policy issues associated with nuclear 
waste disposal at Yucca Mountain since 1996, and am currently co-
director of the Yucca Mountain Project at MIT, an independent technical 
review of the science done in support of a repository at Yucca 
Mountain.
    I have been asked to address issues of quality assurance at Yucca 
Mountain, issues of the quality of science done to characterize the 
site, and the long-term feasibility of the project. To understand 
quality assurance and the quality of the science at Yucca Mountain, one 
must first understand what type of science is being produced there. 
Then I will discuss a selection of what I consider to be the 
significant unresolved scientific issues that bear on the safety of the 
Yucca Mountain site as a nuclear waste repository. I will conclude with 
some suggestions for improving the quality of the science and the 
implications for the long-term feasibility of the project.
                      brief summary of main points
    To understand the quality of science done that supports the siting 
of a repository at Yucca Mountain, it is important to evaluate both the 
qualitative and quantitative aspects of the science. First, the science 
done at Yucca Mountain is produced by scientists mindful of the 
political goals of the agencies they work for, and the work they 
produce is evaluated by managers trying to meet those goals. 
Furthermore, Yucca Mountain science has been largely published in gray 
literature, which limits scientific debate. Politics has even 
influenced the kind of questions asked in the technical analysis of 
Yucca Mountain. For instance, because the repository is to be located 
above the water in an arid region, it is considered ``dry.'' The 
Department of Energy (DOE) and others have promoted the dryness as an 
advantage, though one can easily make a scientific argument that the 
opposite is true. More importantly, this focus on the positive aspects 
of a dry repository has caused DOE to overlook technical issues such as 
spent fuel oxidation, and they have left this issue largely unresolved.
    In evaluating the scientific analysis done to support the Yucca 
Mountain site, it became clear that there are actually a number of 
unresolved technical issues that may affect the performance and 
therefore safety of the repository. These are issues of:
  --surface infiltration rates based on climate change models,
  --transport of water above the water table and the continuing debate 
        over the meaning of chlorine-36 data,
  --the durability of Alloy-22, which forms the basis for the 
        resilience of the waste canister,
  --colloidal-facilitated transport of radioactive materials like 
        plutonium,
  --transport of water and radionuclides in the unsaturated zone, and
  --the potential effects of volcanism on the repository.
    The reasons that these issues remain unresolved are multiple, and 
include those policies within DOE that lead to blind spots, such as the 
emphasis on ``dry is good.'' The results of the total system 
performance assessment, used to evaluate the repository, de-emphasize 
geologic barriers and the need to understand them better. Finally, the 
Quality Assurance program itself limits both the data that DOE can use 
in its site evaluation and the people and laboratories qualified to 
collect such data.
    In summary, I suggest that the quality of science can be improved 
by:
  --adjusting the Quality Assurance program to allow the use of 
        published data and laboratories that do not have DOE's 
        approval,
  --requiring DOE scientists to publish their work in peer-reviewed 
        journals,
  --providing competitive grants to academic scientists to address the 
        unresolved scientific issues,
  --allowing for completely independent scientific review of the work 
        done by DOE in support of the Yucca Mountain site, and
  --ensuring that performance assessment is not the only tool used to 
        evaluate Yucca Mountain, but that a comparison of different 
        waste sites (in the United States and in other countries) be 
        completed.
                 politics and science at yucca mountain
    To understand the quality of science being produced to support the 
Yucca Mountain site, we must first understand the type of science being 
done. At Yucca Mountain, scientific knowledge addresses the policy 
question of whether the site is suitable for waste disposal. The 
knowledge itself is being used to predict the behavior of the 
repository over geologic time through complex computer modeling to 
determine whether members of the public could be at risk over that 
time. Most important for this hearing, the science produced at Yucca 
Mountain is being evaluated equally by scientific peers within the DOE 
and their managers, who are required to meet goals set by their agency.
    It is the last point where politics appears to play a direct role 
in the knowledge produced. The scientists producing the knowledge to be 
used in nuclear waste policy must satisfy their managers at the DOE. 
And these managers, in turn, must fulfill legal and regulatory 
obligations under the Nuclear Waste Policy Act and Nuclear Regulatory 
Commission (NRC) and Environmental Protection Agency (EPA) rules. In 
this way, not only are the managers at DOE and its contractors seeking 
particular knowledge--politicized knowledge, if you will--but the 
scientists themselves are required to address questions, gather and 
interpret data in a way that fulfills DOE's political obligations.
    The quality of science produced in the U.S. nuclear waste policy 
process can be difficult for scientists and others outside of the 
process to evaluate. Much of the scientific research produced at Yucca 
Mountain is published in the form of ``gray'' literature. Many of the 
DOE reports are unsigned--``authored'' instead by the institution, not 
an individual. Such authorship obscures accountability and decreases 
scientific debate. In contrast, debate is often encouraged by 
scientific journals, which publish reviews of papers that take issue 
with the results or interpretations of data presented in previously 
published work. The scientists themselves carry out public debates in 
journals. In the case of the science produced at Yucca Mountain, the 
scientists who produced the knowledge are only rarely accountable to 
the larger scientific community. Furthermore, the results of this 
research are not widely distributed because of the difficulty of 
obtaining the reports. As DOE scientists themselves remarked in a 2001 
National Academy of Sciences Report,

    ``It is important to note that the history of the characterization 
of Yucca Mountain cannot be accurately reconstructed solely on the 
basis of citable literature. To fully understand this history requires 
reference to unpublished draft reports, memoranda, and rough notes.''

    What constitutes peer review in the case of scientific knowledge 
produced for Yucca Mountain? All DOE contractors require that completed 
scientific research go through an in-house review that not only 
considers the quality of science done, but also the implications of 
making certain findings public. In this way, scientists are responsible 
to managers who may or may not be scientists themselves, but who have 
clear political agendas to meet the goals and requirements of the DOE, 
NRC, and EPA. Some peer review comes in the form of public hearings, 
though the impact of the feedback from public hearings and public 
comment is negligible. These public comment exercises appear to be more 
like ``rituals'' than serious venues to receive, process, and 
incorporate input from the public. Finally, some peer review comes from 
entities such as the National Academy of Science (when asked) and the 
Nuclear Waste Technical Review Board, whose influence depends on the 
members of the board and, since they are appointed by the President, is 
politicized. Peer review works best when scientists outside a community 
perform the review--as is done with work published in peer-reviewed 
journals. DOE's internal review process appears to be a community 
reviewing itself, and thus calls into question the quality of the work.
    Now that we know that politics does indeed play a role in the 
science produced to uphold the Yucca Mountain site, we can ask the 
question, has politics limited some of the science done and the 
questions asked about the site? I would argue that the answer is yes. I 
will provide one example of such a bias.
    The main technical reason DOE provides for regarding Yucca Mountain 
as particularly appropriate for nuclear waste disposal is the low water 
table, the thick unsaturated zone above the water table, and the arid 
location. The plan is to store waste above the water table in a dry 
region--a region where, it is hoped, conditions will remain dry due to 
the arid environment. Actually, this was not always the case. 
Initially, DOE considered using the saturated zone, below the water 
table, for waste disposal at Yucca Mountain but changed its mind, in 
part due to the discovery of the existence of rapid water transport in 
the saturated zone. The key to nuclear waste disposal in the United 
States has become disposal of waste in a setting that minimizes contact 
with water. Put simply, the policy has become ``dry is good.''
    Where does the dry is good policy come from? First of all, the 
unsaturated zone at Yucca Mountain is not really dry. On average, a 
cubic meter of repository rock contains about 100 liters of water. 
Second, although held up as a scientific criterion for nuclear waste 
repository siting, there is no scientific basis for using the 
unsaturated zone. In fact, most other countries, partly due to the 
geological or hydrological conditions, are planning to dispose of their 
nuclear waste in the saturated zone, below the water table. As long as 
an isolated saturated zone can be found that does not communicate with 
other aquifers, a saturated zone offers technical advantages, 
especially if most of the high-level waste is in the form of spent fuel 
(as will be the case for the United States). Reactor fuel is composed 
of uranium oxide, UO<INF>2</INF>, which is stable and not prone to 
corrosion under reducing conditions, where little to no oxygen is 
present--conditions, in other words, that would be found in a wet 
environment. Oxidizing conditions (circulating air), like those 
expected at the Yucca Mountain repository, cause spent fuel to become 
unstable and break down, just as iron rusts in air. The breakdown of 
the spent fuel creates new minerals and increases the surface area over 
which any water present can act to remove radionuclides from the spent 
fuel. Sweden, for instance, plans to use copper as a canister material 
to encase spent fuel. Copper, as we know from its existence in nature, 
is highly resistant to oxidation and corrosion if it remains in a 
reducing environment. Thus, Sweden will considerably reduce the 
uncertainties in repository performance by emplacing its waste in a wet 
environment.
    As a result of the focus on a dry repository, DOE has done 
insufficient analysis of issues associated with the rapid oxidation of 
spent fuel. This is an especially important technical issue because 
over 95 percent of the radioactivity in Yucca Mountain waste will 
result from spent fuel. Thus, once the waste package corrodes and the 
spent fuel is exposed to moisture and air in the drifts, based on 
studies of natural analogues, it will rapidly alter to new forms. DOE 
has a limited understanding of the spent fuel dissolution process due 
to a lack of thermodynamic and kinetic data. Furthermore, there is 
little information on whether the alteration products will retain 
radionuclides or release them to the environment.
             unresolved technical issues at yucca mountain
    Spent fuel oxidation represents one of the scientific issues that 
remains unresolved (and will likely remain so even after the DOE 
submits the license application), but could affect the performance of a 
nuclear waste repository at Yucca Mountain. There are a number of these 
issues, including surface infiltration, transport in the unsaturated 
zone, durability of waste package materials, the role of colloids in 
radionuclide transport, saturated zone transport, and volcanism.
Surface Infiltration
    Assumptions about future infiltration of water into Yucca Mountain 
are based on predictions of climate change. Because the EPA requires 
compliance with their standards for 10,000 years, climate change 
predictions must attempt to cover this span of time. To do this, the 
DOE looked at the last 400,000 years (which encompasses the last 4 
interglacial-glacial cycles) to predict wettest conditions that would 
be experienced over the next 10,000 years at Yucca Mountain. They saw 
at most a 5-fold increase in infiltration.
    In fact, DOE may be underestimating climate effects because they 
have not adequately accounted for the effects of increasing 
CO<INF>2</INF> levels on climate warming. Over most of the Pleistocene, 
the last 2 million years, atmospheric CO<INF>2</INF> levels ranged 
between 200 ppm-280 ppm. Since the dawn of the industrial revolution 
they have risen to the present level of 365 ppm. The Intergovernmental 
Panel on Climate Change has predicted that by 2100, CO<INF>2</INF> 
levels will reach between 500 ppm-1,200 ppm. The last time 
CO<INF>2</INF> levels were in the 1,000's of ppm was in the Eocene, 50 
million years ago. At that time, there were no polar ice caps and 
reptiles were found near the north pole. The climate was much wetter as 
well as being warmer, even in the Nevada region.
    Although Nevada's climate will presumably not become tropical in 
the next few hundred years, clearly over the next 10,000 the impact on 
surface infiltration will be significant and most likely much more 
significant than a five-fold increase. Unfortunately, DOE has not yet 
completed the necessary analyses to really understand the potential 
impacts of anthropogenic climate change on the safety of a Yucca 
Mountain repository.
Transport in the Unsaturated Zone
    Our understanding of how rapidly water is transported through the 
rock above the water table at Yucca Mountain has changed substantially 
over time. Initially, geohydrologists assumed water moved slowly along 
grain boundaries in the rock. Their models gave estimates of 
infiltration rates from less than 0.5 mm/year to 4 mm/year in 1980's. 
With the discovery of the presence of above-normal concentrations of 
the isotope chlorine-36 associated with fractures at the repository 
level in the mountain, DOE changed the old models. High-levels of the 
chlorine-36 isotope are attributed to atmospheric tests of nuclear 
weapons done in the 1950's. This material was carried in rain or snow 
to Yucca Mountain and then transported 1000 feet through the rock to 
the repository level within 50 years. Such rapid transport suggested 
the existence of fast transport pathways--most likely the fractures 
associated with the high level of chlorine-36. Thus, the current model 
of water transport in the unsaturated zone is a mix of fast and slow 
pathways with an average infiltration rate of 5-10 mm/year with some 
locations receiving up to 80 mm/year.
    The academic hydrology community largely accepts the results of 
these studies on Yucca Mountain, but DOE does not. They are, in fact, 
in the process of redoing some of the original data collection on 
chlorine-36, but have not really addressed the problem properly--in 
fact, they have addressed it so improperly that one wonders what the 
Quality Assurance program is really all about, actually. For example, 
in one approach to redoing the original study, workers collected 
samples in the repository area, not at potential fast pathways, such as 
fractures, but instead at systematically fixed distances along the 
tunnel walls. These samples did not produce traces of bomb-pulse 
chlorine-36, but that would be expected--and was consistent with the 
earlier study. Furthermore, the sample preparation techniques that DOE 
used in this ``redo'' study were not the same as in the previous 
study--and therefore could not produce scientifically comparable 
results.
    Although DOE has embarked on this costly effort to redo the 
previous study on transport pathways, it has neglected to address a 
number of important issues that bear directly on the safety and 
performance of the repository. DOE's current unsaturated zone models 
use steady-state precipitation conditions, but in fact water transport 
may instead be dominated by threshold events, such as thousand-year 
storms. Moreover, DOE still does not have good models of fracture flow, 
leaving open the questions of how much water could be carried in 
fractures and which fractures would flow.
Durability of Alloy-22
    The canister or waste package that will contain the spent fuel and 
high-level waste will have two shells, an inner shell made of stainless 
steel and a 2 cm-thick outer shell constructed of a nickel-chromium-
molybdenum alloy called Alloy-22. Current DOE modeling suggests that 
waste packages will contain waste for at least 30,000 years. But these 
results are based on large extrapolations of existing data. The current 
corrosion data for Alloy-22 is from a 2-year long study. This is then 
extrapolated out to tens of thousands of years.
    The existing data suggests over the short-term that passive 
corrosion rates under stable conditions at Yucca Mountain would be less 
than 0.1mm/year. The assumption is that conditions will remain stable 
at Yucca Mountain. It is not clear how groundwater chemistry near the 
waste packages will evolve over time, although DOE is attempting to 
model this. Groundwater chemistry, including its composition, oxidation 
potential and pH (acidity/alkalinity) are dependent on temperature, 
which will definitely change over time, interactions between the waste 
package and surrounding rock, engineered items like drip shield, 
concrete struts, and local groundwater. Radiation will also affect the 
situation.
    Other remaining uncertainties in the performance of the waste 
package are: (1) the potential for stress corrosion cracking at lid 
welds--the one certainly vulnerable location in the waste package 
design; (2) the temperature of the repository initially--a ``hot'' 
(above 100C) design or a ``cold'' (below 85C) design; (3) the effects 
on durability of the development of a mineral crust on the waste 
package; and (4) the effects of de-alloying on corrosion resistance. 
The fundamental problem in trying to predict the waste package's 
performance over geologic time periods is the absence of natural 
analogues for Alloy-22. The existence of natural analogues provide a 
basis for understanding the behavior of material over time under 
natural conditions. This is one reason why the Swedes will use copper 
to encase their waste packages--pure copper deposits exist in nature 
and provide hard evidence of the durability of copper in conditions 
expected in their repository locations.
Colloidal Transport of Radionuclides
    Initially DOE scientists assumed that because long-lived hazardous 
radionuclides such as plutonium were relatively insoluble in water, 
they would not be transported any great distance from the repository. 
This assumption held until the 1990's, when DOE scientists found that 
species like plutonium have the potential to attach themselves to 
materials called colloids, inorganic or organic particles between 1-
1,000 nanometers in size that remain suspended in groundwater and 
therefore are easily transported. Colloids can form from sediments, the 
surrounding rock, the waste package or the waste itself, or microbes in 
region.
    Recently, colloids have been shown to facilitate the transport of 
radionuclides. Scientists from Lawrence Livermore National Laboratory 
found evidence for transport of radionuclides via colloids at Nevada 
Test Site. In particular, they found that colloids transported 
plutonium, cesium, cobalt, and europium 1.3 km from the location of a 
1960's-era test.
    Very little information has been collected on colloidal-assisted 
transport at Yucca Mountain. We still do not know the natural abundance 
of subsurface colloids at Yucca Mountain or what will form them. We do 
not know the long-term irreversibility of the radionuclides attaching 
to them. Finally, we do not know what concentrations of these 
radionuclides can be expected to be available for transport.
Transport in the Saturated Zone
    Little detail is known about water flow in the saturated zone below 
the water table. In general, it is known that water flows to the 
southeast then south. The uppermost aquifer in volcanic rocks extends 
10-15 kilometers south of Yucca Mountain and discharges into the 
alluvial sediments in Amargosa Valley. The upper aquifer has high 
permeability due to the existence of extensive fractures, but the 
permeability and fracture networks are not well quantified. Overall 
there is a significant lack of data on the subsurface geology, the 
water table configuration, general hydraulic parameters, and the 
division of flow between matrix and fractures. This is in large part 
due to a lack of boreholes and borehole data. Many of the existing 
boreholes are concentrated in the south, in the aquifer that exists in 
the alluvial sediments near Amargosa. Clearly, more boreholes are 
needed in the volcanic aquifer. Perhaps more important is the lack of 
multi-well test sites--at the moment there is only one site located to 
the east of Yucca Mountain. If DOE is to understand how radionuclides 
will be transported away from the site in the groundwater, it is 
essential that they complete this work.
Volcanism
    Volcanism remains a controversial issue. Five Quaternary basaltic 
volcanoes lie within 20 kilometers of Yucca Mountain. The youngest 
volcanic cone in the region, about 80,000 years old, is the Lathrop 
Wells cone, located at the southern end of Yucca Mountain. The question 
that remains unresolved is whether a new volcanic center can form under 
Yucca Mountain. There are two potential scenarios: the first is an 
explosive eruption below the repository that would spew radioactive 
material into the atmosphere; the second is that magma does not vent 
but instead fills the open drifts. Associated with the hot magma would 
be corrosive gases. The combination of thermal effects and corrosion 
would rapidly degrade the waste packages and any waters associated with 
the magmatic activity could accelerate the transport of radioactive 
material into the accessible environment.
    Currently the DOE and NRC do not agree on the probability of such 
an event occurring. DOE estimates that the probability of a volcanic 
event at Yucca Mountain over the next 10,000 years is 1 event in 20 
million years to 1 event in 180 million years, while the NRC estimates 
the likelihood to be 1 event in 10 million to 1 event in 100 million 
years.
    In addition to the probability of a volcanic event at Yucca 
Mountain, there are a few additional unresolved issues. The first is 
from ``buried'' basalts (from magnetic anomaly data), which suggest 
that the number of young events in the area could be larger than 
initially thought. If this is so, it increases the probability of a 
volcanic event at Yucca Mountain. Secondly, the methods by which DOE 
and NRC use tectonic models of origin of volcanic activity to estimate 
the probability of a future eruption differ. DOE only uses three 
models, weights them equally, and then takes the average. NRC looks at 
all possible models and asks whether any would result in violation of 
standards or regulations.
                      reason for unresolved issues
    Why do these issues continue to remain unresolved? There are a 
number of reasons. Earlier I offered an explanation for DOE not yet 
resolving the spent fuel oxidation issue: because DOE is so focused on 
the ``dry is good'' policy that they have lost sight of the negative 
aspects of a dry repository. Some of these issues have not received 
enough attention because DOE's performance assessment emphasizes the 
superior behavior of the waste package material (even in light of the 
question I raised above) over the geologic barriers to radionuclide 
release. According to the performance assessment results, over 99 
percent of the site's capability to preserve waste isolation is due to 
the performance of its waste canisters over the 10,000 year compliance 
period; only 0.1 percent is contributed by the geology of the site.
    Originally, geologic disposal was considered the best option for 
dealing with HLW because of the ability of the geologic environment to 
contain the waste for substantial periods. Engineered barriers such as 
the waste form and disposal casks were thought to be less reliable. DOE 
has now reversed its previous thinking, so that in performance 
assessment analyses, geologic barriers such as slow transport, 
retardation of radionuclides, and distance of the repository from 
aquifers have been replaced by a greater reliance on engineered 
barriers such as the waste package and drip shield. DOE's Supplemental 
Science and Performance Analyses of 2001 support this shift and show 
that for the Yucca Mountain site, if the waste package were omitted 
from the performance assessment model, the radiation dose to people 
living near the site would reach 500 mrem 2,000 years after repository 
closure. This dose would exceed the EPA standard of 15 mrem/year by 
more than an order of magnitude. When the waste package is included in 
the model, peak doses of 800 mrem/year are only reached 200,000 years 
after repository closure. Furthermore, DOE's analyses of the effects of 
individual barriers to radiation dispersal at Yucca Mountain suggest 
the same conclusions: the largest dose increases result from failure of 
the waste package itself, and not from increased water infiltration 
into the repository nor increased transport of radioactivity in the 
water table.
    Another explanation for the unresolved issues lies in the Quality 
Assurance program itself. In some cases, the Quality Assurance program 
is a barrier to who can do science and what science can be used in the 
assessment of the Yucca Mountain site. One of the rules of the Quality 
Assurance program is that data already published in the literature 
cannot be sued as primary data and can only be used to corroborate 
DOE's own findings. Thus, even if the work has already been done by 
others and peer-reviewed by the larger scientific community, DOE 
requires that it collect its own version of the data to input into 
modeling studies. Furthermore, the process of actually using already-
published data turns out to be an onerous task that few DOE scientists 
attempt. Thus, they are forced to repeat work already done. 
Furthermore, the Quality Assurance program requires that laboratories 
that produce data to be used in the Yucca Mountain assessment to be 
``qualified'' by the DOE before they are allowed to produce usable 
data. This is a costly and onerous task and limits which labs can do 
analysis.
                            lessons learned
    What can we do to address the current issues? Clearly, it was a 
mistake for Congress to select only one site to characterize. In doing 
so, it put a great burden on the responsible Federal agencies and made 
it virtually impossible to delineate politics from science in the 
process. That said, what can the United States do given its current 
predicament? Most likely, it will continue on course, and only time 
will tell whether it will be a success. If the project is brought to a 
halt from public disapproval, lawsuits, or failure of the DOE to get an 
NRC license, there is no alternative plan, another legacy of the 1987 
Nuclear Waste Policy Act Amendments. If that happens, the United States 
will not be the only country to experience a huge upheaval in its 
nuclear waste program: it will have good company with Canada, the 
United Kingdom, France, and Germany. All these countries had repository 
programs that they abandoned in the face of strong public protest. The 
United Kingdom and Canada have yet to deal with the issue, while France 
and Germany have revamped their repository programs, giving the public 
a greater hand in site selection. Germany's new program may provide 
some insights into how to proceed more fairly.
    In Germany under the previous Christian Democrat government, they 
had selected the Gorleben site for a nuclear waste repository, in a 
strategy similar to that of the United States: decide on one site, do 
some scientific analysis to see if it is suitable, and do not involve 
the public in the decision. Under the new Social Democrat-Green 
government, they ``threw out'' the Gorleben site and began with a 
``white map'' to re-examine the entire country for appropriate sites. 
The first ``cut'' at this project will only consider sites on the basis 
of scientific criteria, not political ones. The scientific criteria by 
which the site will be selected are divided into two steps--the first 
step using general scientific criteria, the second step using a 
weighting process that employs somewhat more detailed criteria. In 
contrast to the criteria used initially in the U.S. site suitability 
procedure, these criteria are not set up to qualify or disqualify 
sites; they are all allowed, but weighted.
    Once at least three sites have been identified as being technically 
suitable, then the public enters the site selection process. At this 
point citizens of the selected regions, who all along will have had 
access to the scientific process that occurred previously, will be able 
to vote on whether to allow the government to explore the proposed 
site. Their vote will also be informed by socio-economic studies of the 
positive and negative impacts of a waste repository on the region. Thus 
the German process may have a better chance than the American one at 
using a broader scientific view.
    How does this apply to the current U.S. situation? First in terms 
of the Quality Assurance program, it could:
  --allow the free and easy use of peer-reviewed data gathered by 
        academic researchers,
  --allow the use of laboratories that do not have the imprimatur of 
        DOE's Quality Assurance program as long as they are respected 
        within the academic community, and
  --continue to encourage DOE scientists to publish their work in 
        academically peer-reviewed journals and in fact make it easier 
        for them to do so by reducing the number of internal reviews 
        required of the work. DOE scientists have begun to do this more 
        over the last few years. It is essential that they receive 
        support to continue to do so to gain the support of the 
        academic community.
    DOE could improve the quality of science produced for its nuclear 
waste disposal program by:
  --offering competitive grants to academic researchers to complete 
        scientific analyses essential to the understanding of Yucca 
        Mountain science. In doing so, they must not control the 
        interpretation of data. The Office of Civilian Radioactive 
        Waste Management has recently enacted a funding program aimed 
        at supporting academic research on these issues. It should be 
        viewed as a start of a larger process.
  --allow an external panel of scientists, selected in as apolitical 
        fashion as possible (for example, by a group of members of the 
        National Academy of Sciences or ranking members of national 
        scientific organizations), to produce an independent review of 
        the science done--and allow a mechanism for feedback within 
        DOE.
    Finally, DOE might benefit by comparing the expected performance of 
different existing waste repository sites (such as the WIPP site in New 
Mexico and the sites selected by Finland and Sweden) to Yucca Mountain, 
instead of simply relying of their performance assessment modeling of 
Yucca Mountain.

    Senator Reid. Thank you very much, Dr. MacFarlane. By the 
way, I did not mention her Ph.D. is in geology.
    We are now favored with the presence of William L. Belke, 
former senior Nuclear Regulatory Commission on-site 
representative of the Yucca Mountain Project. He retired from 
the Nuclear Regulatory Commission in 2002 after having worked 
for the agency for some 28 years.
    Most recently, he served as a senior NRC on-site 
representative in Las Vegas. This position required interface 
and oversight of the Department of Energy and Department of 
Energy's contractors, including observing DOE audits, meetings 
with DOE staff, DOE contractors, and Nevada State and local 
Government officials.
    Prior to working in Las Vegas, Mr. Belke had numerous 
quality assurance positions at the United States Atomic Energy 
Commission and the Nuclear Regulatory Commission. In 
particular, he developed and reviewed regulatory guides and 
standards for quality engineering practices relating to safety 
and health of the public for nuclear facilities. Mr. Belke also 
conducted field inspections and audits to evaluate and verify 
proper implementation of quality assurance programs at the 
Three Mile Island Nuclear Power Plant, Millstone Nuclear Power 
Plant, and the Tennessee Valley Authority nuclear facilities.
    Prior to working for the NRC, Mr. Belke worked as a quality 
control specialist for Pratt and Whitney's jet-engine program. 
He was educated at Central Connecticut and State College in 
Connecticut, and his degree is in industrial technology.
    Mr. Belke, please proceed.
STATEMENT OF WILLIAM L. BELKE, NUCLEAR REGULATORY 
            COMMISSION (RETIRED)
    Mr. Belke. Thank you, Senator. Thank you for having me 
here. It is an honor and a privilege to be here.
    There are handouts in the back of my testimony, so I will 
kind of just highlight it, with your permission----
    Senator Reid. We would like you to do that, please.
    Mr. Belke [continuing]. In the interest of time, yes, okay.
    Page 1, I would like to emphasize what quality assurance, 
by definition, is. It is all those planned and systematic 
actions necessary to provide adequate confidence that an item 
will perform satisfactorily in service. It should be used as a 
valuable management tool, as a means of improving, not to say 
``I got you'' all the time, and that is the way it has been 
used in the past. The Department of Energy has an excellent 
top-tier document called the Quality Assurance and Requirements 
document. That incorporates the appropriate quality assurance 
Code of Federal Regulations, the nuclear quality standards, and 
the NRC guidance.
    You can have the best program described in place. But 
unless you implement it properly, you have breakdowns. This has 
repeatedly occurred with certain nuclear reactors. There is a 
big study out in the 1970's, after Three Mile Island, I believe 
it is new reg 1400, which showed the good plants and the bad 
plants and what quality is.
    NRC, at this time--DOE, rather--is not a licensee and they 
are not subject to the NRC enforcement actions and/or 
penalties, civil penalties, like the reactors are. What NRC can 
do is look at anything anytime, and that is mandated by the 
Waste Policy Act and also the Code of Federal Regulations. If 
NRC notes deficiencies or inadequacies or shortcomings, they 
are documented and carried generally as an open item until DOE 
resolves them.
    I have listed about nine of the significant deficiencies 
that have occurred over the past years that I was with the 
project, on page 2, and I do not have to go through them unless 
you have questions on them. I would be more than happy to 
answer that.
    Senator Reid. We will have some, so please proceed.
    Mr. Belke. Okay.
    There have been several efforts and studies and independent 
assessments of why these things repeatedly occur, from DOE. And 
in part 63--this was a comment I had, ironically, when I was 
doing the regulations--but we found--and I will read this 
verbatim, ``The QA staff of DOE and their contractors have been 
successful in identifying QA program deficiencies in the 
various participants' programs and, in many cases, highlighting 
the repetition of similar deficiencies. In the past, inadequate 
corrective action was taken, and the DOE organizations 
responsible for correcting deficiencies were not held 
accountable.'' As I said earlier, implementation again.
    I find the DOE contractor QA personnel the finest I have 
ever encountered in all my years of quality assurance. They are 
very knowledgeable. They are very well educated, trained; and 
they do not surface Mickey Mouse deficiencies, or they only 
surface the major deficiencies.
    What I would like to do is maybe offer, based on my 
background and experience with the program, is suggestions or 
observations that should be considered to improve this program. 
I think people should be held accountable for the activities 
they are performing. I do not see that, and I did not see it 
when I was with the project. I found schedules being met so 
people could obtain their bonuses or whatever reason, but it 
was trash on time. And it is obvious, from the deficiencies on 
the page 2, this occurs again and again and again.
    Another thing was, recent DOE management stated in the 
March 24th, 2000, letter to its employees, in part, that, ``It 
is a commitment to admit imperfections so that high-quality 
work can be achieved. As individuals, it is essential that we 
feel compelled not only to celebrate successes, but also reveal 
mistakes and issues in our work when they occur. The NRC needs 
to know that we can be trusted to do the job correctly, to 
admit when there are problems, and demonstrate our commitment 
to resolve issues.''
    I find this kind of a paradoxical statement because of the 
recent articles published in the media about retaliation taken 
against their employees. This is what is known as a chilling 
effect. It hurts the people, and it causes morale problems, and 
they are afraid. They become afraid of their jobs, their 
livelihoods. That, I think, should be changed. I do not believe 
that people should have fear of retaliation in their jobs.
    And you mentioned earlier, Senator, about backing down. I 
smiled at that, because just before I left, I had an issue. I 
was investigated by the DOE Concerns Program and also the NRC 
Inspector General. I was totally innocent, and they proved me 
that I did nothing wrong and so forth like that. I wanted my 
name cleared. But, more so, I wanted the integrity of the 
office cleared. I did my utmost to keep that office very 
respected.
    Well, long story short is, I got a letter issued to me 
where I was told to ``suck it up.'' That was the word. But the 
letter actually said, ``If you continue this, you will be 
issued a disciplinary action.'' And I retired shortly 
thereafter.
    The third point, I think, is NRC management should be more 
proactive and pay attention to deficiencies as documented in 
the NRC On-site Licencing Representatives Report. That is 
issued every 2 months, and it is also on the Web site, the NRC 
Web site. And we discuss it--well, when I was working there, we 
discussed these problems every week on a team meeting on a 
conference call with Washington with the technical people and 
NRC management.
    You can see, if you look at these reports, that the same 
deficiencies are carried again and again and again. And there 
was no action taken to help these, by my management. The only 
time they maybe get action, a lot of times, is if the State, 
Bob Loux's shop, writes a letter to the chairman and says, 
``Hey, what goes on here?'' That is when they get action.
    I think--a very important point is, I think upper-echelon 
management, the executive director, and maybe even the NRC 
commissioners should initiate action to have the NRC regional 
office participate in inspection activities on this site. NRC, 
as you may know, is the headquarters of the technical people. 
They do all the reviewing of the science and so forth. They are 
not inspectors. We have four regional offices. The regional 
officers that would fall under this project would be Region 4. 
The regional people are trained in inspection activities. They 
do the reactors, they do the fuel facilities. They are very, 
very good. And I think that would be of great assistance to 
this program. I understand--I do not have a copy of it with me, 
but I understand Representative Berkley wrote a letter 
requesting this to the chairman, which I think is an excellent 
idea.
    Lastly, when I was there in the 7 years as an on-site 
representative, I had about over 25 allegations given to me. 
Some of them were slipped under the door; others came in and 
requested to remain anonymous. Many of these allegations were 
of significant nature. Good computer stuff and so forth. By my 
management's direction, I must turn these over to my 
management, and, in turn, my management turns them over to an 
allegation coordinator. In every one of these instances, the 
allegation coordinator and management gave them back to DOE and 
says, ``You fix them.'' NRC does not have the authority. I 
grant you that. But they should be tracked and trended.
    So essentially, these are the observations. I have no 
bridges to burn as a retiree or anything like that, no grudges. 
I think--for the betterment of the program, I think DOE should 
provide confidence not only to the NRC, but to all the affected 
units in the State of Nevada. I am a resident of the State of 
Nevada, and I think they owe it to us.
    Things have to be done correctly. If you cannot--right now, 
they can come back and tell you, ``Well, we are not loading 
fuel.'' That is true. There is no safety hazard at this point. 
If they ever get a license, there will be fuel. But right now I 
think they have got to prove, DOE has got to prove, that if--
they have got to do the little things right. If they cannot do 
the little things right now, they are not going to do the big 
things right in the future.

                           PREPARED STATEMENT

    If you need further information, I would--I saw those--I 
would suggest you contact the NRC, local NRC, on-site 
representative. They will be allowed to come and provide you 
maybe with an update of current activities. And I just think it 
is a shame that these people were not here to give some more 
different perspectives on it.
    So I would be happy to answer any questions.
    [The information follows:]
                 Prepared Statement of William L. Belke
    On behalf of the Senate's Energy and Water Subcommittee, I have 
been requested to provide written testimony regarding my observations 
and experiences during my involvement with the proposed high-level 
waste repository at Yucca Mountain. A copy of my professional 
qualifications are attached.
    I plan to address primarily, the activities I was associated with 
up until my retirement in January 2002. Should this subcommittee seek 
updates of current activities from a regulatory aspect, I recommend 
contacting the appropriate local NRC Las Vegas On-Site 
representative(s) if NRC management permits them to be interviewed. The 
activities described below have been documented and should be a matter 
of public record. I am retired and have no grudges or bridges to burn 
and voluntarily wish to share my prior involvement with the Yucca 
Mountain Project from my perspective now, as a private citizen and 
resident of the State of Nevada.
    From 1974-2002, I was employed by the U.S. Nuclear Regulatory 
Commission (NRC) in various functions pertaining to nuclear reactor 
inspections, quality assurance program reviews, research, and rule 
making. From 1987-2002, I was involved with the Yucca Mountain Project. 
From 1995-2002, I served as the Senior On-Site Licensing Representative 
in Las Vegas, NV. My primary functions were to observe and monitor 
ongoing quality assurance and engineering efforts conducted by the U.S. 
Department of Energy (DOE) and its contractors. The purpose of this 
monitoring was to gain confidence, that should DOE ever apply for a 
Construction Permit and ultimately a license, that sufficient 
activities had been conducted by DOE to demonstrate that an acceptable 
program is in place to protect the safety and health of the public for 
the citizens of Nevada. This includes developing a program to produce 
highly qualified data that will be defensible at any public adjudicary 
hearings.
    Quality Assurance by definition, ``. . . is all those planned and 
systematic actions necessary to provide adequate confidence that an 
item will perform satisfactory in service.'' Quality Assurance should 
be used as a valuable management tool to detect deficiencies, correct 
them to prevent recurrence, and thus, improve the overall integrity of 
the product or program. The Office of Civilian Radioactive Waste 
Management Quality Assurance Program Description and Requirements 
document is the top tier document reviewed and accepted by the NRC. It 
is an excellent document that incorporates the Code of Federal 
Regulations, National Standards, and NRC Regulatory guidance that DOE 
has committed to implement. Any entity can have the best Quality 
Assurance document plan in place, but if not implemented properly, the 
result is a breakdown of the program requirements. This has been 
demonstrated with several nuclear reactors resulting in reactor 
shutdowns and costly civil penalties and legal enforcement action by 
the NRC.
    DOE at this time, is not a licensee and consequently, is not 
subject to NRC enforcement action and civil penalties. Presently, there 
is no high-level radioactive waste being stored at the site and no 
threat to the safety and health of the public. However, during the 
present site characterization phase, NRC by virtue of the Code of 
Regulations and the Nuclear Waste Policy Act, can observe and 
investigate DOE activities and provide input as to acceptability from a 
licensing perspective. Identified problems are documented and carried 
as ``open items'' until fully resolved.
    Some examples of deficiencies/shortcomings that I have either 
witnessed or uncovered during my 15-year association with the Yucca 
Mountain Project are listed below. These deficiencies and others have 
also been documented in the U.S. NRC's On-Site Representative's bi-
monthly report to NRC management (and distributed to affected Yucca 
Mountain participants) for appropriate management action as deemed 
necessary.
  --Geological core in the late 1980's was determined to be unusable 
        because of the lack of traceability/identification. The cost of 
        this mishap exceeded a million dollars.
  --Numerous errors in the design process necessitated initiating a 2-
        year corrective action program to correct and revise the design 
        process.
  --Software, modeling, computer program errors detected resulted in a 
        multi-year corrective action program.
  --Numerous and repetitive supplier deficiencies resulted in a 
        project-wide review of all data to determine whether this was 
        of sufficient pedigree to be used and entered into the database 
        for potential site characterization and ultimate license 
        application.
  --Numerous and repetitive errors in scientific notebook entries 
        resulted in a review of all project scientific notebooks and 
        personnel training.
  --Deficiencies were not being closed in a timely manner and were 
        remained open for 2 to 3 to 4 years.
  --Erroneous or questionable calculations found in final technical 
        reports necessitated a multi-year corrective action program.
  --Instances that certain personnel in technical positions did not 
        appear to possess appropriate qualifications/expertise.
  --Examples of NRC not always being told the total truth. There was an 
        instance whereby I was admonished by NRC management and 
        threatened with disciplinary action after two independent 
        investigations determined I was totally innocent and that a DOE 
        employee had not revealed the true story!!
    Efforts have been attempted to determine why deficiencies such as 
noted above repeatedly occur. In the Part 63 of Title 10 of the Federal 
Code of Regulations, it is stated, ``The QA staff of DOE and their 
contractors have been successful in identifying the QA program 
deficiencies in the various participants' programs and, in many cases, 
high-lighting the repetition of similar deficiencies. In the past, 
inadequate corrective action was taken, and the DOE organizations 
responsible for correcting deficiencies were not held accountable.'' As 
stated above, the problem is IMPLEMENTATION (emphasis added). In my 35-
plus years involved in the field of quality assurance activities, I 
have never worked with such a highly qualified dedicated number of DOE 
contractors, employed to provide technical and quality assurance 
oversight to the Yucca Mountain Project to determine whether the 
quality assurance program requirements are being effectively 
implemented.
    From my perspective in the involvement of the Yucca Mountain 
Project, I have observed repetitive recurrences of deficiencies with a 
questionable record of improvement. In summary, I conclude and/or offer 
the following suggestions that may improve or enhance the Yucca 
Mountain Project activities.
  --People should be held accountable for the activities they are 
        performing. Too often schedules are met and the net result is 
        ``Trash on time'' with no penalties.
  --Recent DOE management has stated in a March 24, 2003, letter to its 
        employees in part, that, ``. . . it is a commitment to admit 
        imperfections so that high quality work can be achieved. As 
        individuals, it is essential that we feel compelled not only to 
        celebrate successes, but also reveal mistakes and issues in our 
        work when they occur. The NRC needs to know, that we can be 
        trusted to do the job correctly, to admit when there are 
        problems and demonstrate our commitment to resolve the 
        issues.'' I find this to be a paradox in light of recent 
        articles reported in the media where employees surfaced 
        problems and were admonished. This attitude causes a ``chilling 
        effect'' and must be changed to improve the Yucca Mountain 
        project, not dampen it. Personnel should not have fear of 
        retaliation when they find a deficiency.
  --NRC management should be more proactive and pay more attention to 
        deficiencies as documented in the NRC On-Site Representative's 
        bi-monthly report and also discussed at the weekly meetings 
        between the NRC ON-Site Representatives and NRC management. As 
        documented in the bi-monthly reports, many deficiencies are 
        carried as open items for extended periods without any support 
        from NRC management to initiate closure or until an outside 
        unit (i.e., State of Nevada) writes a letter to the NRC 
        Commissioners requesting action for closure.
  --NRC upper tier management should consider action to have the NRC 
        Regional Office to participate and be involved in providing a 
        more structured inspection approach for Yucca Mountain. The NRC 
        Regional Office personnel are specifically trained and 
        qualified in inspection techniques as opposed the NRC 
        Washington Headquarters personnel having the necessary 
        expertise to review and evaluate the scientific aspects of site 
        characterization.
  --Reported allegations should be given more attention by both the NRC 
        and DOE and taken more seriously for the purpose of improving 
        the Yucca Mountain Project.
    Briefly, these are my observations and insights during my 
employment in the Yucca Mountain Project and I will try to answer any 
questions this subcommittee may have. As stated above, there is at 
present, no radioactive waste being stored at Yucca Mountain and no 
danger to the health and safety of the public. However, at this time, 
DOE needs to provide confidence not only to the NRC but all affected 
units, that the little things can be done correctly and down the road, 
the big things will be done correctly. Again, for more accurate insight 
to current Yucca Mountain Project statue, I would recommend contacting 
appropriate NRC and DOE involved individuals.

    Senator Reid. We will proceed with some questions.
    Now, as I understand, what you have told us is that if you 
have a game plan, to make it effective, you have to work the 
game plan. You just----
    Mr. Belke. Absolutely.
    Senator Reid [continuing]. Cannot have it on paper. I mean, 
you can have the greatest game plan that a coach puts forward 
in a championship game, but if his team does not execute that 
playbook, so to speak, it does not work----
    Mr. Belke. Absolutely.
    Senator Reid [continuing]. No matter how ingenious that 
playbook may have been. Is that not right?
    Mr. Belke. Yes.
    Senator Reid. And so what you have told us, in layman's 
terms, is that there is a good playbook out there, but it just 
needs to be implemented properly. Is that what you have said?
    Mr. Belke. Yes, sir.
    Senator Reid. And I am terribly disappointed. You know, 
there is a pattern here that is developed--``Take one for the 
team,'' ``Suck it up''--as if we are dealing with something 
that is unimportant. You know, this is not building a freeway. 
This is building a nuclear repository that is supposed to be 
good for thousands of years. And it would seem to me that 
everyone would benefit with openness. But that has not been the 
story.
    Dr. MacFarlane, there appears to be a persistent problem 
with political pressure affecting the work of the technical 
scientific staff at the project. Recent news reports focus 
primarily on problems with retaliation against quality 
assurance engineers and staff. It is my understanding that you 
have heard from scientists who have been pressured in their 
work. Is that true?
    Dr. MacFarlane. Yes, that is true.
    Senator Reid. Tell us a little bit about that.
    Dr. MacFarlane. It has to do with the chlorine-36 data. Are 
you familiar with that?
    Senator Reid. With what?
    Dr. MacFarlane. The chlorine-36 data. Are you familiar with 
that issue?
    Senator Reid. It is the water stuff?
    Dr. MacFarlane. It has to do with the unsaturated zone, 
the----
    Senator Reid. I was hoping there was not a follow-up 
question. I may have had to answer it.
    Dr. MacFarlane. Let me give you a little background. The 
area under study that we are talking about is the region 
between the surface--you know, the Yucca Mountain surface, 
earth's surface--and the water table. That is what they call 
``the unsaturated zone.'' And the question was, How quickly is 
water transported----
    Senator Reid. Yes.
    Dr. MacFarlane [continuing]. From the surface down to the 
repository? So that is 1,000 feet. And it used to be thought 
that it was transported really slowly and so it would not be an 
issue. And then, in the 1990's, there were some scientists who 
did some collection of data and found--there was this one 
isotope called chlorine-36, and they found high amounts of it 
associated with fractures at the repository, you know, in the 
5-mile-long--or 5-kilometer--no, 5-mile-long access tunnel. And 
chlorine-36 is not naturally occurring in large amounts.
    Senator Reid. I see.
    Dr. MacFarlane. It comes from nuclear weapons--above-ground 
nuclear-weapons tests. So it was clear that it was transported 
by rain and snow precipitation down that thousand feet in 50 
years or less. Okay? Because that is when the nuclear-weapons 
tests were. So that meant there was fast transport at Yucca 
Mountain, fast water transport. And this was a problem for the 
Department of Energy in saying that this site was good. Okay?
    Now----
    Senator Ensign. Will you just clear up--excuse me for 
interrupting----
    Dr. MacFarlane. Yes, go ahead.
    Senator Reid. Please. No, please proceed.
    Senator Ensign [continuing]. Will you clarify why it is 
important whether there is water present in the repository?
    Dr. MacFarlane. Sure. Excellent question.
    It is important because the assumption was that not much 
water is going to get down and attack the canister. And water 
is the enemy of these canisters, because the idea is that it is 
supposed to be this dry repository where water will not rust 
the canisters, essentially. And it turns out that that is--it 
is a lot more complicated than originally thought. That clarify 
it?
    Senator Reid. Yup.
    Dr. MacFarlane. Yup?
    So this data, my understanding of it is that it was well 
done, well collected, well analyzed, published in the peer-
reviewed literature, accepted by the hydrologic community as 
reasonable, but the Department of Energy did not like it. They 
did not like the results, because the results meant the site 
was a lot more complicated than they had originally planned.
    So they have been redoing this work. And in redoing it, and 
in their first analysis of the quality of this work, some of 
the scientists who originally collected this data sort of took 
a bashing.
    Now, I cannot tell you details, because I do not know----
    Senator Reid. Well, the problem that we have, Dr. 
MacFarlane, with this, though, is that these scientists are 
most, most unlikely to speak out----
    Dr. MacFarlane. They are.
    Senator Reid [continuing]. For fear----
    Dr. MacFarlane. And I do not want to identify them.
    Senator Reid [continuing]. For fear that they will never 
get another grant.
    Dr. MacFarlane. Exactly. And I do not want to identify 
them, because--for the same reasons.
    Senator Reid. So we have danced this tune before.
    Dr. MacFarlane. Right.
    Senator Reid. Ms. Nazzaro, one of the main issues raised by 
so-called ``insiders'' at the project is the emphasis on 
adhering to the program time line over ensuring quality 
engineering and science. It is a problem. Push. Keep pushing. 
We have heard, in various ways, all the witnesses talk about 
this. The General Accounting Office's primary conclusion at 
this point would appear to support this claim that there has 
been emphasis on pushing the program time line rather than 
looking at quality. Have you found evidence that supports this, 
in your investigation?
    Ms. Nazzaro. Well, while--as I stated, we are in the 
preliminary stages of this particular investigation. We do have 
some indications that that may be true. You have, certainly, 
recurring problems, and yet the time lines have not changed.
    Another issue that is rather curious is that, as you know, 
in fiscal year 2003, for this particular project, DOE's budget 
was cut $130 million. Well, what was that money going to be 
spent on? You know, was this excess funds that they had 
available? You would think if you have less money, there is 
something that is not being done, and that is going to affect 
your ultimate time line. Our concern is are there quality 
assurance things that are not being done and what is pushing it 
is the time line rather than the quality of the project? So 
this is something we will be following up on in the next few 
months.
    Senator Reid. One of the things that was interesting in 
your testimony is that there has been a pattern of problems 
with quality assurance with this project.
    Ms. Nazzaro. Right.
    Senator Reid. And the other thing that I think I heard you 
say is that this is not through all Federal Government that you 
have these problems. I mean, there may be--I mean, my point is, 
for long periods of time with Department of Energy and Yucca 
Mountain, it appears to be a pattern of not dealing with the 
problems that occur. And my point I want to make is, this is 
not happening through all areas of Government. It is unique to 
DOE. Is that as extensive as it has been?
    Ms. Nazzaro. I guess it would be hard to say that it does 
not happen at all----
    Senator Reid. No, I----
    Ms. Nazzaro [continuing]. For the rest of the Federal 
Government----
    Senator Reid [continuing]. No, I recognize that----
    Ms. Nazzaro [continuing]. Because, I mean, there certainly 
are recurring problems throughout the Federal Government that 
we see, you know----
    Senator Reid. That is part of your responsibility----
    Ms. Nazzaro [continuing]. In the course of our audit role, 
but----
    Senator Reid [continuing]. Is to look into that.
    Ms. Nazzaro [continuing]. But we certainly do see recurring 
problems at DOE in a number of areas. I mean, some of the areas 
that we highlight is their high-risk area, as far as contract 
management, that this is a pervasive problem.
    I think where we are going, though, in the near future with 
our work, is to try to identify are there any root causes for 
these--you know, that we see these recurring problems, DOE does 
not seem to be able to correct them, and----
    Senator Reid. And the answer is----
    Ms. Nazzaro [continuing]. We need to really----
    Senator Reid [continuing]. The question is why.
    Ms. Nazzaro [continuing]. What we really need to get at is 
why. Now, there are some problems that are pervasive across the 
complex that we are beginning to see some indications that 
Yucca Mountain is no different than the rest of the Department 
of Energy. And certainly one of the things that was developed, 
you raised, and Dr. MacFarlane, is the accountability issue, 
and that has been a pervasive problem throughout DOE as far as 
the accountability of contractors. Another----
    Senator Reid. Yes, the--I want to make sure that I have 
stressed this point, and I want to phrase the question 
differently than I did before, but----
    Ms. Nazzaro. Okay.
    Senator Reid [continuing]. Is not it unusual that you would 
have these recurring problems over such an extensive period of 
time with a Government agency? This is a Cabinet-level agency.
    Ms. Nazzaro. Yes. Well, I would say, certainly, through the 
audit work that we have done, we do see corrective actions. I 
mean, once a problem has been identified, we do see corrective 
actions. Here, you have a situation where after 20 years you 
are still seeing the same problem. As I highlighted, you know, 
in 2001, we are seeing the same problems with software 
verification that you saw in 1998. You know----
    Senator Reid. Thank you.
    Ms. Nazzaro [continuing]. You would think by now there 
would be some corrective actions taken, that you would not see 
that kind of a problem.
    Senator Reid. Senator Ensign?
    Senator Ensign. Thank you, Mr. Chairman.
    Back in Washington, DC, when we meet with people about some 
of the things that we are talking about today and some of the 
Yucca Mountain scientific reports, a lot of it is written off 
as, ``Well, that is just the Nevada folks,'' you know, ``being 
biased against the project and not wanting nuclear waste to 
come to their State, and they are just politically posturing.''
    I want to get something on the record from the witnesses 
here today. Question one is, Are you for or against nuclear 
power? And question two is, Are you for or against the nuclear 
repository at Yucca Mountain?
    Mr. Belke.
    Mr. Belke. I think nuclear power is a good, viable source 
of energy. As a Government employee, I think, the high-level 
waste site, I was to be neutral. My personal opinion is that I 
think burying the waste out at Yucca Mountain is not the best 
of ideas. Why I say that is a little over 100 years ago, we did 
not have a light bulb. And you can see how much technology has 
evolved. I think we could store this at the site in these 
canisters, which are accepted by NRC. They are approved. More 
so, you could put them in a concrete bunker and monitor from 
the sites. The nuclear power sites are all investigated by NRC, 
seismic and flooding and tornados and that jazz. So it would 
cut the costs down. And I think, in the future, that they would 
develop a technology to use this again for nuclear power.
    Senator Ensign. For those skeptics out there, though, as 
far as your personal beliefs, you are pro-nuclear power----
    Mr. Belke. Yes.
    Senator Ensign [continuing]. And you think that we should 
be able to deal with the waste. You are just concerned that 
Yucca Mountain needs to be built the right ways if we are going 
to build it--is that correct?
    Mr. Belke. It has got to be built safely, yes.
    Senator Ensign. Okay.
    Dr. MacFarlane, same questions. Are you pro or against 
nuclear power? And do you have any bias against the actual 
site, aside from some of the problems that we have heard? ``If 
these problems can be cleared up, are you against the site?'' I 
guess is the best way to say it.
    Dr. MacFarlane. Okay. The first question, on nuclear power, 
I am not against nuclear power. It is a viable source of 
energy. As long as the problems are solved, and one of the 
problems is nuclear waste.
    Second question, nuclear waste in Yucca Mountain, I am not, 
a priori, against Yucca Mountain. It may be an okay site. I 
think that we are very far from saying that it is an okay site, 
though.
    I will go on the record as saying, though, I do think some 
kind of geologic repository is needed. It is not clear to me 
that Yucca Mountain is the right location.
    Senator Ensign. Okay, but you do not come in with a 
prejudice against Yucca Mountain.
    Dr. MacFarlane. Nope.
    Senator Ensign. Thank you.
    Ms. Nazzaro, obviously, you answer to the Congress. GAO is 
a reporting arm that answers to the Congress. The people that 
are doing this investigation, are they on the pro-Yucca 
Mountain side, on the anti-Yucca-Mountain side or----
    Ms. Nazzaro. To answer that, I think you have to go back to 
some of the comments that Senator Reid made in my introductory 
remarks. GAO is certainly on record as being an accountable 
agency, one with integrity and a lot of reliability behind the 
data that they present. And we go through stringent review 
processes, not only of the products, but also of the 
individuals that do the work, to make sure that we do not bring 
any biases toward the work. So, I mean, we have certainly 
reported, similar to, as Dr. MacFarlane says, that nuclear 
energy is a viable source of energy.
    And as far as Yucca Mountain, I mean, we do have to deal 
with nuclear waste somehow. So, I mean, we are not saying that 
Yucca Mountain is a bad idea. In fact, we have not said that 
the science is bad. What the problem is, is that they have not 
been able to prove that the assumptions that they are making 
are the right assumptions.
    Senator Ensign. Well, I thank each of you. I think that the 
reason it was important to get that on the record is, something 
can look incredibly bad or incredibly good, depending on bias. 
And what I wanted to establish is that we do not have anybody 
here who is testifying today--let us say, that is from an 
environmental group that would be totally anti-nuclear power. 
We have unbiased witnesses who are pointing out some serious 
discrepancies. There are some serious quality assurance 
problems at the Yucca Mountain Project, and it is important 
that the public understand this. And not just the public in 
Nevada, but the public in America.
    Cost estimates are, according to the General Accounting 
Office, as high as $58 billion by the time that Yucca Mountain 
is supposedly complete. And so we are talking health and 
safety. We are talking a lot of money.
    The majority of us here in Nevada would love to see nuclear 
waste never come here. But if it is going to come here, we want 
to make sure that the DOE is conducting themselves in a proper 
manner. The DOE should not be afraid of light shining in on the 
Yucca Mountain process if they are doing it right.
    We have a lot of good people working on the Yucca project. 
I have met a lot of these scientists, a lot of good people--who 
truly believe that they are trying to do the right thing. And 
unfortunately, when negative results come out and they try to 
do the right thing, they are shut down, they are intimidated, 
they are fired.
    And that is why so many of us have such a huge problem with 
the way that DOE is acting. As Senator Reid talked about 
earlier, there is something deep in the bowels of the 
Department of Energy that just says, ``We do not care what 
information is being shown. We are going forward with this 
project regardless of what is shown.'' For example, the DOE 
finds the water problem, and decides, ``Oh, that doesn't 
count.''
    If you study the history of Yucca Mountain the repository 
was to be, as you said, Dr. MacFarlane, a geologic repository. 
This is no longer a geologic repository; this is a man-made 
repository. It was supposed to be the earth which protected us 
from all this nasty stuff. Well, the earth cannot protect us 
because of all the faults with Yucca Mountain.
    So we appreciate your being here. I will have some more 
questions, but I will turn it over to Senator Reid so we can go 
back and forth.
    Senator Reid. John, that was extremely good. Thank you very 
much.
    Mr. Belke, we have stated that we appreciate your being 
here today. It was not easy for you to be here. As you know, 
there are press reports released the last few days indicating 
that DOE was reluctant to encourage their employees and 
contract employees to testify at today's hearing. But as a 
former NRC Commission employee, why do you think the DOE's 
response was this? I still have trouble comprehending this. I 
cannot understand it.
    Mr. Belke. Senator, my immediate reaction when I read that 
in the paper was kind of twofold. I think it is atrocious. I 
respect your positions as Senators and I honor them. And if a 
Senator asked me to do something or respond, I think I am 
obligated to. And I feel DOE should be here, without question. 
And especially when you have a hand on the purse strings. I do 
not know why they are doing this. I really cannot answer that.
    And the other thing, the twofold part, is, it was about 5 
years ago, NRC had a study performed about their response to 
outreach of the public, and this was under Chairman Meserve, 
and he initiated a program, and it is even out here, of the 
local office, the NRC office goes out to the public every 3 or 
4 months and hands out the literature and everything. DOE does 
likewise with tours of the site and everything. To me, they 
should be outreach to the public. We have this openness in 
Government. And I see this, this is just--I do not understand 
it. I really cannot answer the question. I am just shocked by 
it.
    Senator Reid. And for Dr. Chu to write a letter back to us 
saying, in effect, ``Well, he would testify, but he does not 
work there anymore.'' I mean, it is like----
    Mr. Belke. I could pull the same tack, as retired in 2002. 
I mean, you know--Bob was very good, and so is Don, by the way. 
I enjoyed them.
    Senator Reid. Dr. MacFarlane, in your written testimony--
and I have read every word of it, and I appreciate, all three 
of you, the depth of your testimony; it will be made part of 
the record--you state that Germany has scrapped its own ``Yucca 
Mountain'' program because of public concern about the safety 
of the site.
    And then we have just heard Mr. Belke say what Senator 
Ensign and I have been saying for 3 years now, ``Leave it where 
it is. Why do we have to deal with the transportation problem? 
Leave it where it is. You do not have to worry about terrorists 
trying to sabotage these trains or trucks traveling across the 
country. Leave it where it is, in these dry-cask storage 
containers.''
    Do you agree with Mr. Belke that dry-cask storage 
containment is a safe alternative? For 100 years, not forever.
    Dr. MacFarlane. Yes, for 100 years, the NRC has said that 
it is a safe alternative. I think, certainly, dry casks would 
have to be monitored. They may have to be changed out after 40 
or 50 years. But I think it is quite a safe alternative. In 
fact, I think, in terms of the terrorism question, it would be 
much better if we would take most of the spent fuel out of the 
pools at nuclear power plants and put it into dry casks at the 
nuclear power plants.
    Senator Reid. No question about that.
    Dr. MacFarlane. So----
    Senator Reid. And is not it true that Germany has gone to 
hardened dry-cask storage at the present time?
    Dr. MacFarlane. Yes, they actually have a couple of 
centralized facilities, storage facilities, where they move 
some of the spent fuel off site and store it.
    Senator Reid. You, Dr. MacFarlane, mention in your 
testimony about DOE's research being published gray literature. 
I had not heard that term before. Explain what this means, for 
those of us who are not scientists. And what does gray 
literature have to do coming up with a positive result?
    Dr. MacFarlane. What do you mean by a positive result?
    Senator Reid. Well, what I mean is a scientifically 
validated response.
    Dr. MacFarlane. Right. Most scientists would not consider 
gray literature to be scientifically valid.
    Senator Reid. And what is gray literature?
    Dr. MacFarlane. Gray literature is literature that is 
basically reports. People who have published reports, the 
Department of Energy reports, all of the Department of Energy 
reports are gray literature. Any contractors' reports are gray 
literature. These are pieces of scientific analysis that have 
not been offered to a scientific journal----
    Senator Reid. Dr. MacFarlane, let me interrupt and say 
this. That is part of the problem that some of us have, is 
that--you know, when I used to practice law, and you had a 
trial, you had to make very sure that your witness could not be 
impeached with cross-examination, that he used to work for the 
plaintiff or, you know, whatever it might be. And here is a 
situation where the bias is so obvious. These contractors who 
have jobs--when I say contractors, I mean the corporation that 
has a contractor out there--those are huge bucks.
    Dr. MacFarlane. Yes.
    Senator Reid. And I have heard--I do not know if this is 
valid--but large amounts of money are paid to these people. One 
of these witnesses here is a man over 70 years old. So you can 
understand--he is 71 years old--you can understand why he is 
concerned about his job. He makes over $100,000 a year. Where 
is this man going to go, at 71, 72, 73 years old, to find 
another job? I mean, I think that we all, being understanding 
of human nature, no matter how much you want to do the right 
thing, and you need this job--I have also heard--this could be 
checked by others--that he lost a tremendous amount of money on 
the stock market, as a lot of people have done, and he is 
desperate to keep working at the--at his advanced age.
    Now, if this person were testifying in a trial, his 
testimony would not be credible. And that is what gray 
literature is all about, is it not?
    Dr. MacFarlane. In----
    Senator Reid. I am not saying----
    Dr. MacFarlane [continuing]. A sense.
    Senator Reid [continuing]. I am not saying they are all 
lying or cheating. But if--you cannot have any confidence in 
what they are saying. It has not been peer reviewed.
    Dr. MacFarlane. Right. It has been peer reviewed, but it is 
an internal peer review. It is DOE reviewing itself. And that 
is----
    Senator Reid. But doesn't----
    Dr. MacFarlane [continuing]. You know, they have a lot of 
scientists there----
    Senator Reid [continuing]. Does that not answer----
    Dr. MacFarlane [continuing]. And that is okay.
    Senator Reid [continuing]. Though?
    Dr. MacFarlane. But in general, peer review, in the 
scientific community, the larger scientific community, works 
when somebody sends in an article to a journal, and an editor 
at that journal sends that article out to two or three 
individuals who may not know the person who wrote the piece, 
and then they say, ``This is good work. This is bad work. These 
are the problems. Do it over. Revise it. Trash it. It is 
okay.'' And this is the kind of review that is not happening at 
DOE.
    Senator Reid. As I said before, this is not people out 
there trying to determine the best way to build a freeway 
across the deserts of Nevada. We are dealing with the most 
poisonous substance known to man: plutonium, nuclear waste. And 
it would seem to me that the Department of Energy would be well 
served to have what they are doing held up to the scrutiny of 
at least a congressional hearing. And I think that it is fair 
to say that Senator Ensign and I are going to return to 
Washington and do what we can to compel the testimony of these 
witnesses. This is not right, that a Government agency, 
Cabinet-level agency, can, in effect, just thumb their nose at 
a congressional committee. I do not think Senator Stevens, I do 
not think Senator Byrd, the chairman and ranking member of the 
full committee, are going to put up with this.
    Senator Ensign.
    Senator Ensign. Thank you.
    I want to get back to this whole idea, Dr. MacFarlane, of a 
peer review. How would it be received in the scientific 
community--let us say, for a pharmaceutical company to develop 
a drug, to complete an in-house study which had really nice 
results about the drug's benefits, and to have some of their 
other scientists, within their company, do the only peer 
review. What would the FDA say in that case?
    Dr. MacFarlane. Well, I do not know about this FDA, but----
    Senator Ensign. I guess we will not go there.
    Dr. MacFarlane. But the larger scientific community would 
say that is trash.
    Senator Ensign. Yes.
    Dr. MacFarlane. And they would not believe that, of course.
    Senator Ensign. I mean, it would be a joke.
    Dr. MacFarlane. Yes. Of course. It would be.
    Senator Ensign. I do not know of any place in the 
scientific community where internal peer review is adequate, if 
you want your research accepted by the general scientific 
community. And as Senator Reid talked about, we are talking 
about nuclear waste that is going to be around for hundreds of 
thousands of years.
    Dr. MacFarlane. Yes.
    Senator Ensign. So the more people that look at this 
information, in as objective a manner as possible, the better.
    Dr. MacFarlane. I agree completely.
    Senator Ensign. It would seem to me that the purpose for 
external peer review is to make sure that there is not an 
agenda, that you are as objective as possible. No one is ever 
100 percent objective. We know that. Everybody goes in with 
some kind of a bias. But you want objective people looking at 
the data to say, ``Oh, there was a mistake made there, there 
was a procedure that was not good scientific procedure,'' or 
something along those lines. And it seems to me the Yucca 
Mountain Project has not been subject to nearly as much 
external peer review as should be.
    Dr. MacFarlane. I agree. I would say that, just for the 
record, the Department of Energy would probably argue that it 
is intensively peer reviewed. It has--you have the Nuclear 
Waste Technical Review Board, which--with members appointed by 
the President----
    Senator Ensign. By the way, though, the Nuclear Waste 
Technical Review Board has said that the science is weak.
    Dr. MacFarlane. Yes, I agree.
    Senator Ensign. Okay?
    Dr. MacFarlane. Yes.
    Senator Ensign. I mean, so their peer review has said they 
have had weak science.
    Dr. MacFarlane. Yes, that is right. So they have not gotten 
a good peer review----
    Senator Ensign. Yes.
    Dr. MacFarlane [continuing]. Even from the Nuclear Waste--
--
    Senator Ensign. And----
    Dr. MacFarlane [continuing]. Technical Review Board.
    Senator Ensign [continuing]. And the Nuclear Waste 
Technical Review Board is composed of scientists trying to come 
up with objective concerns.
    Dr. MacFarlane. Well, they are a----
    Senator Ensign [continuing]. The best that they can.
    Dr. MacFarlane [continuing]. Very few--the point I would 
like to make is that they are--the Yucca Mountain Project, the 
science being done there, is incredibly complex. It encompasses 
many, many subdisciplines. And with the few members on the 
Nuclear Waste Technical Review Board and other peer-reviewed 
panels that DOE has gotten together, these people, although 
they may be eminent scientists and well qualified in their 
particular areas, they cannot be expected to understand and 
review the entire Yucca Mountain Project science. And so the 
whole project would be better served by going to those specific 
sub-communities and asking them to peer review particular 
pieces of science.
    Senator Ensign. Well, Mr. Chairman, we have a lot of very 
talented scientists working on the Yucca Mountain project. We 
all know that. There are some just brilliant minds working out 
there, and there are some people who believe in the project who 
are trying to do the right thing. The unfortunate thing is that 
there is a culture at the DOE that says, ``We are going to 
build this thing.''
    Secretary Abraham told me that Yucca Mountain is going to 
open by 2010. I think that there is no chance that it is going 
to open by 2010--so I have asked a lot of people who are 
associated with this project, ``What do you think of that 
statement?'' Recently I spoke to an expert who said, 
``Technically you could overcome a lot of the things if you put 
enough money into it, except for the problems associated with 
transportation.'' Well, that is a little bit of an issue, the 
issue of transportation.
    So there are so many unanswered questions, and to have 
people going full steam ahead with this project is ridiculous. 
Scientists use double-blind studies so that you do not know 
what the result is going to be; you just let the facts prove 
out what is going to happen. There is no chance that this is 
anywhere close to a double-blind study. As a matter of fact, 
the DOE has blinders on, because they want to go forward to 
make sure the science shows what they want it to show.
    It is a shame. It is too important a project for this kind 
of shoddy science to be going on. I hope that--with hearings 
like this, that we can shine some more light on what is going 
on at DOE and let the DOE know that we are not going to let 
them get away with shoddy science.
    So I want to thank all three of you for having the courage 
to come today. We know that it is risky. There are chances of 
losing grants. Unfortunately, anytime you are a Government 
employee, you always take a risk by doing these things. And, 
sir, enjoy your retirement, and thanks for your service.
    Senator Reid. John, I have just a few more questions.
    Ms. Nazzaro, in a 1988 report, you found the culture within 
the Yucca Mountain Project did not promote safety and a safety-
conscious work environment. In your preliminary work, have you 
found that culture persists today? And would you say that the 
failure of two witnesses to appear today is a reflection of 
that culture?
    Ms. Nazzaro. Our preliminary work certainly shows that 
there is a problem, as far as culture and attitude. And I 
think, again, it was Mr. Belke who raised the issue, as far as 
the culture and attitude.
    The issue is not whether they have a plan in place or not. 
Consistently, we see DOE having a lot of plans, a lot of 
rhetoric. But what we do not see is implementation of those 
plans. And I think that goes back to, certainly, the culture 
and the attitude, and it is probably reflective today as to why 
we do not see certain witnesses here.
    Senator Reid. In your December 2001 report, the General 
Accounting Office found that there were 293 key technical 
issues at Yucca Mountain that had not been resolved. And how 
has this progressed, as far as you know? How many DOE--how many 
of these specialized reports have been completed since then?
    Ms. Nazzaro. Yes, there were 293 key technical issues. As 
of March 2003, 77 of those have been closed. Now, none are 
classified as open. The remainder are classified as ``closed, 
pending,'' meaning that there is a strategy, what they are 
calling a ``path forward,'' that they have identified what the 
problem was and they have developed a strategy. Again, we do 
not see implementation. NRC has not closed them. That there is 
a plan in place, and, again, we are waiting to see 
implementation.
    Senator Reid. Dr. MacFarlane, when you talked about the 
chlorine-36 studies, I want you to tell me why you believe DOE 
refuses to accept this result and continues to conduct 
experiments to disprove what appears to a lot of us to be 
pretty good science.
    Dr. MacFarlane. Well, I suppose if I were DOE, and I were 
tasked with what I was tasked, I would be alarmed by the 
results of the original chlorine-36 study, and I would probably 
want to check it. So that is reasonable, I guess, even though 
it appears, on the surface, that the science, the original 
science, was good.
    The problem comes with how they have checked it. They have 
done a number of studies, and I will just give you one example.
    The original study found the high concentrations of 
chlorine-36 associated with fractures in the rock. What the DOE 
did in redoing one of the studies was, instead of sampling 
again near those fractures in the exploratory studies facility, 
they just drew up a grid and sampled along the grid. Now, the 
grid missed the fractures. So, guess what? No high chlorine-36 
signal. Problem solved. So that is bad science.
    Senator Reid. Mr. Belke, in your written testimony, you 
stated, quote, erroneous or questionable calculations found in 
the final technical report necessitated a multi-year 
corrective-action program.
    Would you, as my final question to the panel today, expand 
on this statement and include how it was corrected and what 
changes needed to be made and how it affected the integrity of 
the project as a whole?
    Mr. Belke. That was ongoing as I was retired. It is 
probably a 2-some-odd-year program. But we would meet with DOE 
and the contractors, probably on a weekly basis, about that 
problem, specifically, and they would show us that they revised 
the review process, the procedures, to make it better. I do not 
know if that has been completed yet.
    As far as the effect on the project, the way these 
calculational errors were found is our technical people back 
East looked at a random number of reports, and they basically 
found missing--erroneous calculations, missing references, 
things like that. And it affects the overall integrity of the 
report, itself.
    Whether or not that is going to have an outcome on the 
project, you have got to--for licensing and/or construction, 
you have got to submit data of a very high pedigree. DOE has to 
make that case. I do not know if that data--I mean, they went 
back and corrected it--I do not know the ultimate outcome of 
that.
    Senator Reid. It seems to me when you are doing something 
scientific, and certainly something scientific as complex as 
this, and you miscalculate the beginning, it is hard to catch 
up. It slows down what you originally started to do. Well----
    Mr. Belke. Yes. My contacts--and I do not know this for 
sure. That is why I think it would be very valuable to have 
NRC-ongoing people here also. They could tell you that. But 
what I hear--and I cannot prove this--I hear that--my contacts 
say they are not very happy with the program at this time. It 
is not as effective as it should be. It is still ongoing.
    Senator Reid. Well, let me say this. I am not very happy 
with the program. And I want all--as Senator Ensign said, we 
appreciate your educating us here today. And I think that 
John's initial question really said a lot. We do not have here 
a bunch of people who are out to prove that nuclear power is 
bad, that Yucca Mountain was bad to begin with. We have people 
here who have been involved in science and the project for many 
years.
    The panel here is about as unbiased as anyone I could find. 
And the two vacant seats would only have complemented the fact 
that we were trying to get people who had no prejudice against 
the project.
    We are talking--I repeat, for the third time today--about a 
multi-billion-dollar project. Senator Ensign said it could go 
as high as $58 billion. There are some who say it will top $100 
billion before this is over. $100 billion. You know, we are 
talking about building railroads and all kinds of things like 
that.
    So we are--we have not stopped. And again, I appreciate a 
representative from the County Commission being here. I 
appreciate, more than words can say, that the Attorney General, 
himself, has spent time here this afternoon.
    We, in Nevada, believe that this is a wrong thing for 
Nevada. But we also believe it is a wrong thing for the 
country. And we hope that good sense will prevail, and there 
will come a time in this country where the Department of Energy 
and the Administration, whoever is in power, will say, ``You 
know, we have wasted a lot of money. Let us just leave it where 
it is until we come up with a better answer.''
    And we are going to continue working on this as a team, the 
State of Nevada team, to do what we can to exert whatever 
influence we can to complement the very, very important 
testimony that we have heard here today.

      ADDITIONAL MATERIAL SUBMITTED SUBSEQUENT TO CLOSE OF HEARING

    [Clerk's Note.--The following letter was written to the 
Secretary of Energy to request written responses from the 
Department to the specific issues and questions resulting from 
the May 28, 2003 Yucca Mountain field hearing held in Las 
Vegas, NV.]
                  Letter From Senator Pete V. Domenici
                                               U.S. Senate,
                                     Washington, DC, June 18, 2003.
The Honorable Spencer Abraham,
Secretary, U.S. Department of Energy, 1000 Independence Ave., SW, 
        Washington, DC 20585.
    Dear Mr. Secretary, The Senate Appropriations Subcommittee on 
Energy and Water Development's May 28 hearing in Las Vegas, Nevada, 
addressed the Department of Energy's management of the Yucca Mountain 
Repository. At that hearing, Senators Reid and Ensign joined three 
testifying witnesses in suggesting certain concerns pertaining to the 
Yucca Site's operation. Chief among the issues raised at the hearing 
were the Department's alleged silencing of employees wishing to speak-
out on quality assurance matters and the alleged discounting of 
credible health and safety questions in the interest of maintaining 
project schedule.
    Because the Subcommittee has a great interest in the consolidation 
and permanent disposition of waste currently located at approximately 
131 sites in 39 states around the country, I am writing to request that 
the Department respond specifically and in writing to the issues raised 
at the hearing. Such a response should address the particular concerns 
noted in the above paragraph, as well as those similar to them 
appearing in the hearing record. The responding statement should also 
be prepared with the knowledge that it will be included in the complete 
hearing record.
            Sincerely,
                                          Pete V. Domenici,
                                                          Chairman.
                                 ______
                                 
                    Response From Margaret S.Y. Chu
                                      Department of Energy,
                                      Washington, DC, July 8, 2003.
The Honorable Pete V. Domenici,
Chairman, Subcommittee on Energy and Water Development, Committee on 
        Appropriations, United States Senate, Washington, DC 20510.
    Dear Mr. Chairman, This is in response to your June 18, 2003, 
letter to the Secretary requesting that the Department of Energy 
respond to issues raised at the Senate Appropriations Subcommittee on 
Energy and Water Development field hearing that was held on May 28, 
2003, in Las Vegas, Nevada. I appreciate the opportunity to provide you 
with more complete information and to set the record straight.
    Three witnesses testified at the hearing: Robin Nazzaro of the 
General Accounting Office; Dr. Allison Macfarlane of the Security 
Studies Program of MIT; and William Belke, a retired Nuclear Regulatory 
Commission On-Site Representative. Two Senators, Senators Reid and 
Ensign, were present for the hearing. No member of the Department of 
Energy management either in Washington or Las Vegas was invited to 
testify.
                   accusation of witness intimidation
    I have been particularly concerned about the serious allegations of 
witness intimidation that were made at the hearing. I have looked into 
those accusations, and I am confident that they are entirely unfounded. 
I am not aware of nor would I tolerate any effort by the Department or 
its contractors to intimidate DOE or contractor employees from 
testifying or otherwise coming forward to share their views.
    Here is my understanding of what happened. I am informed that 
Senate staff approached Mr. Robert Clark, an employee of the Office of 
Civilian Radioactive Waste Management (OCRWM) Office of National 
Transportation, and Mr. Donald Harris, an employee of Navarro Research 
and Engineering, a Yucca Mountain Project contractor, to urge them to 
testify, and that one of the Nevada Senators also spoke to each of them 
about testifying at the field hearing. A few days before the hearing, 
Senator Reid also wrote me a letter requesting that I ``compel'' the 
testimony of Mr. Clark, and that I ``encourage'' the testimony of Mr. 
Harris.
    I thought it was important that the Department and Navarro make 
clear to Mr. Clark and Mr. Harris, respectively, that DOE would not 
pressure them one way or the other and that whether they testified in 
this circumstance was their personal decision to make.
    Accordingly, in the week before the hearing, Mr. Joe Ziegler, 
Acting Director of the Office of License Application and Strategy, 
spoke to Mr. Clark about the matter and assured him that the decision 
on whether to appear at the hearing was entirely his. Mr. Bob Hasson, 
Navarro Program Manager, sent a memorandum to Navarro employees, 
including Mr. Harris, conveying a similar message prior to the hearing. 
I am enclosing a copy of that memorandum. I likewise responded to 
Senator Reid on May 23, 2003, informing him that this was the 
Department's view. A copy of the correspondence is enclosed. Both Mr. 
Clark and Mr. Harris chose not to testify.
    At the hearing, it was alleged that the Department had 
``instructed'' Mr. Clark and Mr. Harris not to appear before the 
Subcommittee. As you can see, there is no truth to that allegation at 
all. To the contrary, DOE and contractor management took action to 
assure these employees that the decision on whether to appear at the 
hearing was entirely theirs, and they made their own decision on the 
matter.
    At the hearing, Senator Reid raised the possibility that 
``intimidation at the project'' could result in employees feeling 
``fear that [they] and [their] families will be made to suffer for 
simply telling the truth.'' This suggestion is not an accurate 
representation of the environment at the Yucca Mountain Project. At the 
Federal, Departmental, and Program level, policies exist to encourage 
employees to voice concerns, and significant protections are in place 
to shield DOE and contractor employees who raise health and safety 
concerns from retaliation or reprisal. I am continuing my efforts to 
ensure that everyone understands that we take seriously any allegations 
of employee intimidation. Following the hearing, my deputy, John 
Arthur, sent an e-mail message to all Yucca Mountain Project employees 
to reaffirm our long-standing commitment. In that e-mail, he stated, 
``I am committed to seeing to it that all of us know and believe we 
work in an open environment where people are free to raise concerns 
without fear of retaliation.''
    allegations that doe has discounted credible health and safety 
           questions in the interest of maintaining schedule
    Senator Reid stated at the hearing that ``DOE is intent on pushing 
the project forward regardless of the risk it poses to the health and 
safety of Nevadans and the rest of the country.'' Senator Ensign stated 
that, ``There are real concerns that the Department of Energy's fierce 
commitment to its schedule . . . has allowed an unrealistic timeline to 
take precedence over quality control.'' Neither the Senators nor the 
three witnesses participating in the hearing presented evidence that 
substantiated these allegations.
    It is true that the Department is working very hard to submit the 
license application for a repository at Yucca Mountain to the Nuclear 
Regulatory Commission (NRC) by the end of next year. In striving to 
meet this objective, however, there has been no compromise in our 
commitment to quality work and protection of health and safety. OCRWM 
is committed to submitting a license application that complies with 10 
Code of Federal Regulations Part 63 and in which data, software, and 
models used in our safety analyses meet or exceed applicable quality 
assurance requirements. During the licensing proceeding, the license 
application will be subject to intense scrutiny from NRC staff, the 
State of Nevada, and other parties, and ultimately the NRC 
Commissioners must judge its adequacy.
               concerns on quality assurance (qa) program
    At the field hearing, Ms. Nazzaro and Mr. Belke expressed their 
views on QA. Efforts to improve quality assurance have been a primary 
focus of our transition from site characterization to preparation for 
licensing, and the Program has been open about quality assurance 
problems and the work needed to correct them. While Ms. Nazzaro and Mr. 
Belke did discuss issues that are very important to the Program, 
neither revealed any new facts on this topic. Both witnesses' view of 
the program is limited and they have not had the benefit of seeing all 
of the changes we have been working hard to implement over the past 
year or so and continue to make. We agree that improving QA compliance 
is critical to our efforts. For over a year, we have focused on 
improving individual accountability for work and strengthening line 
management ownership of procedures so that quality is reflected in our 
work products. I described our ongoing efforts in a May 29, 2003, 
letter to the NRC (which is provided as an enclosure). Over the coming 
months and years, the GAO will have the opportunity to observe and 
assess our improvements. Of course, the success of our efforts in this 
regard ultimately will be judged by the NRC in its assessment of our 
license application.
                          scientific integrity
    The testimony of Dr. Allison Macfarlane also calls for some 
comment. At the hearing, Dr. Macfarlane indicated her dissatisfaction 
with a wide range of political and procedural determinations underlying 
the current repository program. She considers Congress's direction for 
DOE to characterize the Yucca Mountain site ``a mistake,'' takes issue 
with procedures put in place to ensure that only qualified data are 
used, and specifically questions the objectivity of the Nuclear Waste 
Technical Review Board and the National Academy of Sciences. Perhaps 
most important, Dr. Macfarlane asserted that ``[t]he science done in 
support of siting a repository at Yucca mountain has clearly been 
influenced by politics.'' However, she produced no actual evidence for 
that sound-bite allegation.
    Dr. Macfarlane does not claim that any scientist doing work on 
Yucca Mountain has in fact sought to tailor his or her scientific 
efforts to reach a particular result or that any DOE manager has in 
fact sought to persuade any scientist to do so. Rather, her ``science 
influenced by politics'' accusation rests entirely on a word game built 
around the deliberately idiosyncratic misuses of the words ``politics'' 
and ``political.'' Specifically, the entire foundation for the 
accusation is Dr. Macfarlane's observation in her testimony that Yucca 
Mountain science ``is requested by and evaluated by managers at DOE who 
must fulfill legal and regulatory obligations under the Nuclear Waste 
Policy Act and Nuclear Regulatory Commission and the Environmental 
Protection Agency rules.'' This, she argues, means that ``not only are 
the managers at DOE seeking particular knowledge, but the scientists 
themselves are required to gather data in a way that fulfills DOE's 
political [read: statutory and regulatory] obligations'' (emphasis 
added). In other words, because the science at Yucca Mountain is 
directed to assisting DOE in making a determination pursuant to 
criteria set by law, the science is ``influenced by politics.''
    All Dr. Macfarlane is really saying is that any time any scientist 
is asked to produce scientific work for the government, or for that 
matter anyone else, that will be used to help evaluate a particular 
project or approach that must meet legal or regulatory requirements, 
the work should be dismissed because it is ``influenced by politics.'' 
That assertion answers itself.
    The scientific reputations of the DOE National Laboratories and the 
U.S. Geological Survey (USGS) and their scientific staff are 
impeccable. Dr. Macfarlane's innuendo, that because these scientists 
were doing scientific work on a project that must meet particular 
statutory and regulatory requirements their work has therefore been 
tainted by political considerations, is entirely unfounded.
    One example discussed by Dr. Macfarlane to support her allegation 
was chlorine-36 studies. She stated that DOE ``did not like the 
results'' of the original study related to the possible existence of 
fast paths for water flow inside the mountain and therefore had them 
redone. There are numerous problems with Dr. Macfarlane's account of 
this matter, however.
    First, Dr. Macfarlane fails to take note of the fact that this 
study whose results DOE supposedly ``did not like'' was produced by DOE 
science. Yet this fact, it seems to me, undermines the core of Dr. 
Macfarlane's suggestion that the Yucca Mountain Project's science is 
result-oriented, since it demonstrates that our science is directed not 
to finding ``results we like'' but rather to going wherever science 
leads us.
    Dr. Macfarlane also fails to take note of the fact that, far from 
ignoring this study's results, DOE incorporated them (and not those of 
the later studies of which Dr. Macfarlane complains) into its 
calculations for the Site Recommendation models. These models provide 
the key scientific information underpinning the Secretary's conclusion 
regarding the suitability of Yucca Mountain for the siting of a 
repository. The use of the original study's results demonstrates our 
commitment to making regulatory judgments based on the best available 
data, regardless of whether that information is favorable or 
unfavorable to Yucca Mountain's suitability.
    Further, based on models and data incorporating the results of the 
original study, DOE concluded that Yucca Mountain is in fact a suitable 
site for a repository because a repository there is likely to meet the 
stringent health and safety standards that EPA and the NRC have 
established. Thus, as it turns out, the original study's results do not 
undermine the proposition that a repository can safely be sited at 
Yucca Mountain--a third key point of which Dr. Macfarlane also fails to 
make any mention.
    Finally, Dr. Macfarlane suggests that there is something suspicious 
about the fact that DOE has continued to examine the results of this 
study. That is not suspicious. It is good scientific practice. We have 
also continued to examine the results of numerous other studies, as it 
is our responsibility to do, to make sure that the models and data 
underlying our conclusion that the repository can operate safely are 
well-founded and meet NRC data quality requirements.
    I am confident in the quality and integrity of our scientific work, 
which project scientists and external peer reviewers have affirmed. It 
is unfortunate that none of these scientists or engineers was invited 
to testify on the topics discussed during the hearing. Had they been 
invited, I believe interested members of the public would have been 
given a more accurate view of the Project. The testimony of individuals 
with an understanding of the current status of DOE's actions to 
continue to improve our QA program also would have contributed to a 
more balanced understanding of this program. And, had testimony been 
sought from any of the DOE or contractor senior managers, we would have 
testified about our efforts to ensure our employees were not 
intimidated with regard to their personal decision on whether to 
testify at the hearing.
    I hope that this information will assist the Subcommittee in 
understanding more fully some issues raised at the field hearing. 
Please let me know if I can provide any additional information or if 
you have any further questions.
            Sincerely,
                                     Dr. Margaret S.Y. Chu,
         Director, Office of Civilian Radioactive Waste Management.
    Enclosures.
memorandum from navarro research and engineering, inc./navarro quality 
                             services (nqs)
TO: ALL NQS STAFF
FROM: Bob Hasson, Program Manager
DATE: May 23, 2003

    As you know, I am in the process of meeting with each of you along 
with your manager. I have already met with several of you in the past 
few days and I will continue these meetings in the near term. These 
meetings are to determine what concerns or suggestions for improvement 
you may have. It is very important to me and our company to hear any 
concerns and address them appropriately. I have been trying very hard 
to create an environment where everyone understands that they are free 
to raise concerns without any fear of retaliation. I am committed to 
this and I have that as one of my highest management priorities. I am 
open to any suggestions for improving our environment and welcome any 
comments.
    I also want to clarify that in a recent NQS all hands meeting I 
requested that you behave professionally in meetings and be factual 
when you speak. Also, I requested that when the client makes a decision 
and you have a professional difference of opinion, that you support the 
decision of the client. Clearly, if your concern is not just a 
difference in professional opinion, but constitutes a technical or 
safety concern, please bring it forward so your manager or I can 
address it. I requested that you raise any concerns and refrain from 
off-the-cuff remarks and unprofessional behavior. I have stated this 
several times whenever I've had the opportunity.
    Lately, you have seen in the newspapers claims that some of our 
employees were retaliated against for participating in a surveillance 
that caused a stop work order on Bechtel SAIC, Company LLC (BSC). I can 
assure you that I have not retaliated or intended to retaliate against 
anyone. I responded to concerns based on BSC claims and through my 
investigation did not substantiate those claims. I believe the steps 
that I took show you that I will not take employment actions without 
closely investigating the matter. NQS management will not permit anyone 
to retaliate or harass any employee who raises concerns. As always, 
each one of us must do everything possible to avoid even the perception 
of a hostile working environment.
    Additionally, as you may know, the Senators from Nevada will be 
conducting a field hearing on Yucca Mountain. Navarro Headquarters and 
NQS management takes no position on whether an NQS employee 
participates in the field hearing. Each of you should know that your 
decision to participate will not affect your employment status.
    I know that each and every one of you is working very hard under 
these stressful conditions. I personally appreciate your dedication to 
your work.
    As I stated earlier in this memo, and I can't stress this enough, 
it is important that you continue to raise concerns about any aspect of 
your work.
    As always, my door is open to all the staff.
                                 ______
                                 
                              United States Senate,
                               Committee on Appropriations,
                                      Washington, DC, May 22, 2003.
The Honorable Margaret Chu,
Director, Office of Civilian Radioactive Waste Management, U.S. 
        Department of Energy, Washington, DC 20585.
    Dear Dr. Chu: I am writing in regard to a pending field hearing of 
the Senate Energy and Water Development Appropriations committee on the 
recently reported quality assurance problems of the Yucca Mountain 
Project.
    The Subcommittee intends to accept testimony from two witnesses who 
are currently employed by the Department of Energy or as a contractor 
to the Department of Energy. Recent news articles about potential 
quality assurance problems indicate that Robert Clark, former Director 
of Quality Assurance for the Yucca Mountain Project, and Donald Harris, 
quality assurance auditor with Navarro Research and Engineering, Inc., 
have unique knowledge of these reported quality assurance deficiencies.
    The Subcommittee does not intend to subpoena their testimony, but 
believes that they will provide important information regarding the 
reported quality assurance problems. I am writing to urge you to compel 
Robert Clark and to encourage Donald Harris to testify on May 28, 2003.
    I expect that you will promptly inform the witnesses of their 
obligations to appear before the Subcommittee and appreciate your 
willingness to work with the Subcommittee to obtain important 
information regarding the status of the Yucca Mountain Project. If you 
believe these witnesses will not be able to testify or have any 
questions about this request, please contact me or have your staff 
contact Drew Willison.
            Sincerely,
                                                Harry Reid,
                                             United States Senator.
                                 ______
                                 
                                      Department of Energy,
                                      Washington, DC, May 23, 2003.
The Honorable Harry Reid,
Ranking Member, Subcommittee on Energy and Water Development, Committee 
        on Appropriations, United States Senate, Washington, DC 20510-
        6025.
    Dear Senator Reid: Your May 22, 2003, letter requested that I 
``compel'' Robert Clark, and ``encourage'' Donald Harris, to appear and 
testify at your field hearing scheduled for May 28, 2003, in Las Vegas, 
Nevada. We have given no direction to Mr. Clark or Navarro, Mr. 
Harris's employer, regarding this hearing. As for Mr. Clark, the 
subject matter for which his testimony is sought is not within the 
scope of his current duties as an employee of the Department, and 
therefore I do not believe it would be appropriate for me to order his 
appearance. Similarly, as you know, Mr. Harris is an employee of a 
Departmental contractor rather than the Department, and we are not in a 
position to instruct or otherwise pressure him to testify at your 
hearing.
            Sincerely,
                                     Dr. Margaret S.Y. Chu,
         Director, Office of Civilian Radioactive Waste Management.
                                 ______
                                 
                                      Department of Energy,
                                      Washington, DC, May 29, 2003.
Mr. Martin J. Virgilio,
Director, Office of Nuclear Material Safety and Safeguards, U.S. 
        Nuclear Regulatory Commission, Two White Flint North, 
        Rockville, MD 20852.
    Dear Mr. Virgilio: I am submitting this letter in response to the 
request made during the April 30, 2003, U.S. Nuclear Regulatory 
Commission (NRC)/U.S. Department of Energy (DOE) Quarterly Management 
Meeting. The Office of Civilian Radioactive Waste Management (OCRWM) 
leadership team is pleased to provide details of the actions being 
taken to ensure that our license application meets NRC expectations for 
completeness, accuracy, and compliance with quality assurance 
requirements. My team and I strongly believe that the management 
improvements currently underway--in areas such as procedural 
compliance, corrective action programs, individual accountability, and 
safety conscious work environment--are means to that end.
    I have recognized the need to change our focus and improve our 
processes to meet rigorous NRC licensing requirements. The elevation of 
the Project Manager position at the Office of Repository Development in 
Las Vegas to a Deputy Director position vests greater authority and 
accountability directly into this line organization. This change, along 
with a Program wide functional realignment and the implementation of 
our Management Improvement Initiatives, establishes the conditions in 
which our objectives can best be achieved. The Federal and contractor 
leadership team has shared our vision, expectations, and commitments 
with all employees to help us achieve the desired improvement.
                          license application
    OCRWM is committed to submitting a license application that 
complies with 10 Code of Federal Regulations Part 63 and in which data, 
software, and models used in our safety analyses meet or exceed 
applicable quality assurance requirements. To that end, my leadership 
team and I will continue to aggressively work to establish metrics and 
management processes to aid in accomplishing our goals.
    The Office of Repository Development conducts Monthly Operating 
Reviews, in which progress is assessed and managers are held 
accountable for performance. The NRC onsite representatives observe 
these meetings. At these reviews, a progress assessment that 
encompasses the five major components of our pre-licensing technical 
work is used to describe performance:
  --Key technical issue (KTI) agreement closure
  --License application document production
  --Preclosure safety assessment
  --Total system performance assessment
  --Design for license application.
    Reporting the status and percentage complete allows each component 
to be assessed independently and forms an integrated picture of overall 
performance. This assessment methodology ensures that the rate of 
progress is measured against consistent indicators over time.
    We are also tracking the current state of completion of data 
qualification, computer code qualification, and model validation. 
Progress in these areas is monitored and reported at the Monthly 
Operating Reviews, where management attention is focused on areas of 
concern. The enclosure to this letter provides an example of 
information prepared for the Monthly Operating Review, showing both 
percentage-complete status by component and the status of data 
qualification, computer code qualification, and model validation.
    In addition to strengthening the management processes needed to 
assess status and focus on problems, we are improving the approach to 
completing the technical work called for in the KTI agreements. I 
believe that the commitments embodied in these agreements and further 
enhancements of the KTI analyses are keys to facilitating NRC review of 
our license application. For example, one enhancement under 
consideration is to group related agreement items, identify common 
threads and underlying questions, and develop integrated, in-depth 
responses to related issues. Such an approach should result in better 
products and accelerated resolution of KTI agreements. We will present 
our planned approach, showing the grouping of KTI agreements and the 
reschedule for submittal of agreement responses, to NRC by June 30, 
2003.
                         procedural compliance
    Procedural compliance is a critical element of our continued 
improvement process. We are working to strengthen line management 
ownership of procedures in the spirit of building quality in as opposed 
to inspecting it in. We are establishing performance indicators and 
trend reporting to support our improvement efforts. We are committed to 
responding to instances of non-compliance with timely and effective 
corrective action, and will evaluate the types and significance of 
violations and take actions to address recurring problems. We will have 
an effective trend report by September 30, 2003, that will allow us to 
monitor procedural compliance trends, identify causes of non-
compliance, and take prompt corrective action as necessary.
    We are currently streamlining the review and revision process for 
procedures through enhancements to the governing Administrative 
Procedure 5.1Q, Procedure Preparation, Review, and Approval. This will 
be completed and implemented by July 30, 2003. When this procedure has 
been updated, we will screen other procedures for needed improvements, 
starting with a prioritized mission-critical subset.
                       corrective action program
    We will have a single, improved Corrective Action Program 
implemented by September 30, 2003. The Corrective Action Program 
includes self-assessment and lessons-learned components as well as 
methods to identify and correct adverse conditions. Goals under this 
improved program will be to prepare and approve 90 percent of 
corrective actions within 30 days of initiation for deficiency reports 
(DRs) and corrective action reports (CARs); to complete the corrective 
actions for DRs in fewer than 60 days on average; and to complete the 
corrective actions for CARs in fewer than 100 days on average.
    Based on ongoing tracking, there has been a decrease in the average 
age of open DRs and CARS. The monthly number of deficiency report 
closures has increased, and the numbers of DR and CAR weekly late 
actions has decreased.
                safety conscious work environment (scwe)
    Our goal and responsibility is to create an environment in which 
employees freely raise safety issues without fear of harassment, 
intimidation, retaliation, or discrimination (HIRD) and receive a 
timely, effective, and respectful response. In March and April 2003, an 
internal, limited-sample survey was performed to monitor progress to 
date in developing a safety conscious work environment. This has 
established an initial indicator against which improvement can be 
measured. These internal surveys will be performed on a quarterly basis 
and the results will be made available to NRC.
    The OCRWM and the BSC Concerns Programs are improving the 
timeliness of investigating concerns. Based on nuclear industry 
practices, targets of 30 days to investigate routine concerns and 
respond to the concerned individual and 90 days for complex or HIRD-
related issues were established. Currently, the concerns program is 
averaging 17 days to investigate and respond to routine concerns and 63 
days for complex and HIRD concerns. The overall average time to 
investigate and respond to an employee concern in calendar year 2003 is 
27 days, a significant improvement over the 111-day average for 
calendar year 2002.
    We have conducted Program-wide management and employee training to 
build a common understanding of SCWE. The recent survey found that 
employees now have a much improved understanding of SCWE and its 
importance to the Program. However, the results indicated that 
continued effort is needed to fully instill this culture. We are 
planning to implement additional training to increase managers' 
effectiveness in receiving and acting upon concerns. SCWE is also a 
topic for continuing discussion in quarterly meetings jointly led by 
DOE and contractor senior management. Supervisors and staff are 
encouraged to continue these discussions and to return with feedback 
for senior management. I believe that sustaining internal discussions 
of this crucial aspect of nuclear culture, coupled with the formal 
mechanisms that have been put in place, are the most effective way to 
instill and maintain a safety conscious work environment.
    The Management Improvement Initiative recognized the need to 
measure progress more systematically. Therefore, in addition to 
quarterly internal surveys, we plan to have external experts conduct 
annual Program-wide surveys, the first of which is planned for this 
summer.
    The results of these activities will be evaluated and applied to 
foster continuous improvement in SCWE.
                             accountability
    Individual accountability is the key to achieving the outcomes 
identified in the preceding sections of this letter. OCRWM has 
responded to performance problems with appropriate action and has 
recognized good performance. The Monthly Operating Review is a good 
tool for measuring progress and ensuring managers are accountable for 
performance in their work areas.
    We are continuing to strengthen mechanisms to hold individuals 
accountable for the quality, timeliness, effectiveness, procedural 
compliance, and safety of their work products and processes. 
Individuals and organizations will have performance criteria for these 
elements built into their appraisals and evaluations. Demonstrated 
actions that exceed these expectations will be recognized. Failure to 
meet these expectations will be addressed vigorously. We will provide a 
report to employees semi-annually to highlight successes, communicate 
lessons learned, and underscore our commitment to accountability.
    We now have a stronger organization whose fundamental objective is 
to demonstrate that a permanent repository at Yucca Mountain will meet 
NRC's requirements. We will continue to report our progress to NRC at 
Quarterly Meetings. Please feel free to request additional details 
about the actions described in this letter. We look forward to 
continuing our pre-licensing interactions and appreciate NRC's ongoing 
feedback on our progress.
            Sincerely,
                                     Dr. Margaret S.Y. Chu,
         Director, Office of Civilian Radioactive Waste Management.
   enclosure.--monthly operating review progress assessment materials
Percentage-complete status for five major pre-licensing components
Status of data qualification, code qualification, and model validation

               MANAGEMENT ASSESSMENT OF PROGRESS TOWARD LA
                                [Percent]
------------------------------------------------------------------------
                                              Percent
                Component                    Complete         Weight
------------------------------------------------------------------------
KTI Agreement Closure...................              26              10
LA Document.............................               5              20
Preclosure Safety Assessment............              12              10
TSPA-LA.................................              25              30
Design..................................              12              30
                                         -------------------------------
      TOTAL PERCENT COMPLETE............              16  ..............
------------------------------------------------------------------------
Note: ORD MOR Report as of 4/28/03.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                         CONCLUSION OF HEARING

    Senator Reid. So, again, thank you very much. And this 
Senate subcommittee stands recessed.
    [Whereupon, at 2:39 p.m., Wednesday, May 28, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   <all>

</pre></body></html>
